Case: 20-152°

Document: 10-1

Page: 1

Date* °>led: 08/17/2020

July 30, 2020
BLD-266
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1529
TAJI JEMAL LEE, Appellant
v.
SUPERINTENDENT MAHANOY SCI; ET AL.
(M.D. Pa. No. l:13-cv-02353)
Present: AMBRO, GREENAWAY, JR., and BIBAS, Circuit Judges
Submitted are
(1)

Appellant’s application for a certificate of appealability, dated
March 11, 2020 [Dkt. No. 4]; and

(2)

Appellant’s application for a certificate of appealability, dated
June 29, 2020 [Dkt. No. 9]

in the above-captioned case.
Respectfully,

<

Clerk
______________________________ ORDER________________________________
Appellant’s request for a certificate of appealability is denied because he has not “made
a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Jurists
of reason would agree, without debate, that all of Appellant’s claims are meritless, inex­
cusably procedurally defaulted, or noncognizable on habeas review, for the same reasons
provided by the District Court in adopting the magistrate judge’s report. See Slack v.
McDaniel. 529 U.S. 473, 484 (2000).

Case: 20-152r

Document: 10-1

Page: 2

Datr ^Med: 08/17/2020

By the Court,
s/Stephanos Bibas
Circuit Judge
Dated:
MB/cc:

August 17, 2020
Taji Jemal Lee
Ronald Eisenberg, Esq.

A True Copy;y° '►js'.ii''’

<^0.
Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case: 20-15"''

Document: 14

Page: 1

Date r_:ied: 01/05/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-1529
TAJI JEMAL LEE,
Appellant
v.
SUPERINTENDENT MAHANOY SCI;
ATTORNEY GENERAL PENNSYLVANIA
(M.D. Pa. No. l:13-cv-02353)
SUR PETITION FOR REHEARING
Present:

SMITH, Chief Judge, and McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO,
BIBAS, PORTER, MATEY, and PHIPPS, Circuit Judges

The petition for rehearing filed by Appellant in the above-captioned case having been
submitted to the judges who participated in the decision of this Court and to all the other
available circuit judges of the circuit in regular active service, and no judge who concurred
in the decision having asked for rehearing, and a majority of the judges of the circuit in
regular service not having voted for rehearing, the petition for rehearing by the panel and
the Court en banc is DENIED.
By the Court,
s/Stephanos Bibas
Circuit Judge

Case: 20-1S™

Dated: January 5, 2021
MB/cc: Taji Jamal Lee
Ronald Eisenberg

Document: 14

Page: 2

Date ^'ed: 01/05/2021

Case l:13-cv-CP''r;3-YK-KM Document 113 Filed 04/OC*/19 Page l ot 62

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
TAJI JEMAL LEE
Petitioner

CIVIL ACTION NO. 1:13-CV-02353
(KANE, J.)
(MEHALCHICK, M.J.)

v.
JOHN KERESTES, et al,
Respondents

REPORT AND RECOMMENDATION
Presently before the Court is a petition for writ of habeas corpus, filed by the petitioner,
Taji Jemal Lee (“Lee”), under 28 U.S.C. § 2254. (Doc. 1; Doc. 63). The Court received and
docketed Lee’s petition on September 11, 2013,1 and, after a lengthy procedural history,
received a “Supplemental Amendment” to Lee’s petition, submitted with leave of Court, on
January 18, 2018.2 (Doc. 1; Doc. 63). At all times relevant to this action, Lee has been
incarcerated at the State Correctional Institution, Mahanoy (“SCI-Mahanoy), located in
Schuylkill County, Pennsylvania. (Doc. 1, at 1; Doc. 63, at 1). Having been fully briefed (Doc.
23; Doc. 63; Doc. 74; Doc. 111), Lee’s § 2254 petition is now ripe for review.

1 Although Lee did not date his initial petition, it appears that he mailed it for filing on
September 9, 2011. (Doc. 1, at 20).
2 For the purposes of this Report and Recommendation, the Court considers the
arguments raised in both Lee’s original habeas petition (Doc. 1) and amended petition (Doc.
63).

Case l:13-cv-0''^3-YK-KM Document 113 Filed 04^/19 Page 2 of 62

I.

Background and Procedural History
In his petition, Lee challenges his July 18, 2006 judgment of sentence entered in the

Count of Common Pleas of Centre County, sentencing him to a total of 30-60 years in prison.3
(Doc. 1, at 1; Doc. 88, at 31-45). On May 25, 2006, after a four-day trial, a jury found Lee
guilty of 26 drug related offenses, including possession of a controlled substance,4 possession
with intent to deliver a controlled substance,5 delivery of a controlled substance,6 criminal
conspiracy to possess with intent to deliver a controlled substance,7 and criminal use of a
communications facility.8 (Doc. 88, at 25-26). The Superior Court of Pennsylvania
summarized other relevant facts as follows:

3 In addition to the petition, a federal habeas court may take judicial notice of state
court records. Minney v. Winstead, No. 2:12-CV-1732, 2013 WL 3279793, at *2 (W.D. Pa.
June 27, 2013); see also Reynolds v. Ellingsworth, 843 F.2d 712, 714 n.l (3d Cir. 1988).
Accordingly, in reviewing this petition, the Court takes judicial notice of the publiclyavailable dockets of Lee’s criminal and collateral post-conviction proceedings in the Court of
Common Pleas of Centre County, the Superior Court of Pennsylvania, and the Supreme
Court of Pennsylvania. See e.g. Commonwealth v. Lee, No. CP-14-CR-333-2005 (Centre Cnty.
C.C.P.); Commonwealth v. Lee, No. CP-14-CR-334-2005 (Centre Cnty. C.C.P.); Commonwealth
v. Lee, No. CP-14-CR-335-2005 (Centre Cnty. C.C.P.); Commonwealth v. Lee, No. CP-14-CR336-2005 (Centre Cnty. C.C.P.); Commonwealth v. Lee, No. CP-14-CR-793-2005 (Centre Cnty.
C.C.P.); Commonwealth v. Lee, No. 2119 MDA 2006 (Pa. Super. Ct.); Commonwealth v. Lee,
No.1472 MDA 2012 (Pa. Super. Ct.); Commonwealth v. Lee, No. 2005 MDA 2013 (Pa. Super.
Ct.); Commonwealth v. Lee, No. 512 MDA 2016 (Pa. Super. Ct.); Commonwealth v. Lee, No. 224
MAL 2008 (Pa.); Commonwealth v. Lee, No. 866 MAL 2012 (Pa.); Commonwealth v. Lee, No.
123 MAL 2015 (Pa.); Commonwealth v. Lee, No. 254 MAL 2017 (Pa.).
4 35 Pa.C.S. § 780-113(a)(16).
5 35 Pa.C.S. § 780-113(a)(30).
6 35 Pa.C.S. § 780-113(a)(30).
718 Pa.C.S.A. § 903; 35 Pa.C.S. § 780-113(a)(30).
818 Pa.C.S.A. § 7512(a).
2

Case l:13-cv-Cr''r;3-YK-KM Document 113 Filed 04"^/l9 Page 3 of 62

The charges against Appellant stemmed from a series of controlled buys [of
cocaine and heroin]. Kenyon Ebeling, Appellant’s former love interest and with
whom Appellant has a child, served as an informant for the police. Ebeling
consented to the interception of telephone conversations she had with
Appellant.
On July 18, 2006, the trial court sentenced Appellant to an aggregate 30-60
years’ incarceration. The trial court sentenced Appellant to standard range and
mandatory minimum sentences, and ordered Appellant to serve the sentences
consecutively.
(Doc. 91, at 1-2).
During trial and appellate proceedings, Attorney Ronald McGlaughlin (“Attorney
McGlaughlin,” “trial counsel,” or “appellate counsel”) represented Lee. Commonwealth v. Lee,
No. CP-14-CR-333-2005 (Centre Cnty. C.C.P.); Commonwealth v. Lee, No. CP-14-CR-3342005 (Centre Cnty. C.C.P.); Commonwealth v. Lee, No. CP-14-CR-335-2005 (Centre Cnty.
C.C.P.); Commonwealth v. Lee, No. CP-14-CR-336-2005 (Centre Cnty. C.C.P.); Commonwealth
v. Lee, No. CP-14-CR-793-2005 (Centre Cnty. C.C.P.). After filing post-sentence motions,
which were denied by the trial court on November 22, 2006, Lee appealed his conviction to
the Superior Court of Pennsylvania on December 7, 2006. (Doc. 88, at 46-61; Doc. 88, at 7175); Commonwealth v. Lee, No. CP-14-CR-333-2005 (Centre Cnty. C.C.P.); Commonwealth v.
Lee, No. CP-14-CR-334-2005 (Centre Cnty. C.C.P.); Commonwealth v. Lee, No. CP-14-CR335-2005 (Centre Cnty. C.C.P.); Commonwealth v. Lee, No. CP-14-CR-336-2005 (Centre Cnty.
C.C.P.); Commonwealth v. Lee, No. CP-14-CR-793-2005 (Centre Cnty. C.C.P.). On direct

3

Case l:13-cv-0

"S-YK-KM Document 113 Filed 04"'r,/i9 Page 4 of 62

appeal, Lee, through Attorney McGlaughlin, presented the following claims to the
Pennsylvania Superior Court:9
1)

“The trial court erred in the imposition of its sentence in failing to
conclude that there was sentencing entrapment;”

2)

“The trial court failed to find as a matter of law that the defendant
was entrapped by the conduct of Kenyon Ebeling”; and

3)

“The trial court erred in denying defendant’s motion to dismiss the
grand jury indictment for perjury and prosecutorial misconduct, and
otherwise erred in not allowing defendant to present evidence of the
alleged perjury at the time of trial.”
(Doc. 89, at 2-3).

The Superior Court affirmed Lee’s judgement of sentence on January 16, 2009, and
the Supreme Court of Pennsylvania denied Lee’s petition for allowance of allocator on
January 15, 2009. (Doc. 91, at 1-21; Doc. 93, at 1).
Upon the conclusion of direct review, Lee filed a pro se petition for collateral relief
under the Pennsylvania Post-Conviction Relief Act (“PCRA”), 42 Pa.C.S.A. § 9541 etseq., in
the Court of Common Pleas of Centre County on March 27, 2009 (the “First Pro Se PCRA
Petition”). (Doc. 93, at 2-55). The PCRA Court appointed attorney Tammi Fees (“Attorney
Fees” or “PCRA counsel”) as Lee’s PCRA Counsel on April 28, 2009, who filed an amended
PCRA complaint on Lee’s behalf on May 27, 2009 (the “First Amended PCRA Petition”).
(Doc. 94; Doc. 95); Commonwealth v. Lee, No. CP-14-CR-333-2005 (Centre Cnty. C.C.P.);
Commonwealth v. Lee, No. CP-14-CR-334-2005 (Centre Cnty. C.C.P.); Commonwealth v. Lee,

9 Appellate counsel raised several other claims on direct appeal that do not appear to
be relevant to Lee’s current grounds for habeas relief.
4

Case l:13-cv-CP''':;3-YK-KM Document 113 Filed 04"^/l9 Page 5 of 62

No. CP-14-CR-335-2005 (Centre Cnty. C.C.P.); Commonwealth v. Lee, No. CP-14-CR-3362005 (Centre Cnty. C.C.P.); Commonwealth v. Lee, No. CP-14-CR-793-2005 (Centre Cnty.
C.C.P.). In the First Amended PCRA Petition, Attorney Fee’s raised the following claims, in
pertinent part to the instant action10:
1)

“[Attorney McGlaughlin] was ineffective for failing to strike
manifestly biased juror for cause and not litigating issue on direct
appeal”;

2)

“[Attorney McGlaughlin] was ineffective for failing to object and
challenge the propriety of the jury instruction on entrapment”;

3)

“[Attorney McGlaughlin] was ineffective for failing to brief issue of
prosecution witness perjury that was included in the concise
[statement] of matters complained of on appeal”;

4)

“[Attorney McGlaughlin] was ineffective for failing to litigate
prosecutorial misconduct in suborning perjury [] during the grand
jury proceedings resulting in the indictment of [Lee]”;

5)

“ [Attorney McGlaughlin] was ineffective for failing to litigate
prosecutorial misconduct in withholding material discovery
documents from the defense at trial”; and

6)

“[Attorney McGlaughlin] was ineffective for erroneously adv[]ising
[Lee] to waive his right to testify at trial.”
(Doc. 94).

10 Notably, Fees appears to have incorporated the same grounds for relief raised by Lee
in the First Pro Se PCRA Petition. “When a petitioner files a pro se PCRA petition, but
subsequently obtains counsel and files an amended petition, the court will review only the
counseled petition.” White v. Cameron, No. 08-CV-02948, 2008 WL 4861154, at *4 (E.D. Pa.
Nov. 6, 2008) (citing Commonwealth v. Pursell, 724 A.2d 293, 302 (Pa. 1999)). Thus, even
though Lee apparently objects to the filing of the First Amended PCRA Petition, the Court
deems it the operative First PCRA Petition for the purposes of the instant Report and
Recommendation. (Doc. 93, at 2-55; Doc. 94; Doc. 95).
5

Case 1:13-cv-CT''^3-YK-KM Document 113 Filed 04^119 Page 6 of 62

On October 15, 2009, the Commonwealth filed a motion to dismiss certain PCRA
claims without an evidentiary hearing, which the PCRA Court eventually granted on March
12,2010. (Doc. 96, at 1-16; Doc. 96, at 53-60). After holding an evidentiary hearing regarding
Lee’s remaining claims on January 31, 2012, the PCRA Court denied the First Amended
PCRA Petition on April 23, 2012. (Doc. 86; Doc. 97, at 1). On August 10, 2012, Lee filed a
pro se PCRA appeal to the Pennsylvania Superior Court (the “PCRA Appeal”). (Doc. 97, at
2-4). Lee then filed an application to remove his PCRA Counsel on August 24, 2012, which
the PCRA Court granted on August 28, 2018. (Doc. 97, at 6-9; Doc. 97, at 11). The Superior
Court subsequently quashed Lee’s PCRA Appeal as untimely on September 26, 2012, (Doc.
97, at 13-15), and the Pennsylvania Supreme Court denied Lee’s related petition for an
allowance of appeal on April 8, 2013. (Doc. 98, at 1).
On January 17, 2013, Lee filed a second pro se PCRA petition which sought
reinstatement of his PCRA appeal rights nun pro tunc (the “Second Pro Se PCRA Petition”).
(Doc. 97, at 38-49). Specifically, Lee claimed that Attorney Fees was ineffective in failing to
timely advise him of the denial of his first PCRA motion, and failing to timely appeal that
decision to the Superior Court of Pennsylvania. (Doc. 97, at 38-49). After holding an
evidentiary hearing on the matter, and after the instant federal habeas petition was filed, the
PCRA Court reinstated Lee’s PCRA appeal rights nunc pro tunc with respect to the First
Amended PCRA Petition on October 28, 2013. (Doc. 98, at 16).
Upon having his appellate rights reinstated, Lee filed a pro se notice of appeal on
November 6, 2013 (the “First PCRA Appeal”). (Doc. 98, at 17-19). On February 21, 2014,
the PCRA Court addressed the issues Lee raised therein, and reiterated its bases for dismissal
of the First Amended PCRA Petition. (Doc. 98, at 20-35). After Lee filed an appeal, the
6

Case l:13-cv-0o^3-YK-KM Document 113 Filed 04'0<V19 Page 7 of 62

Pennsylvania Superior Court affirmed the PCRA Court’s decision on December 23, 2014.
(Doc. 101, at 35-49). Lee thereafter filed a petition for allowance of appeal, which the
Pennsylvania Supreme Court denied on May 20, 2015. (Doc. 101, at 51-70; Doc. 103, at 2).
Prior to the State Supreme Court’s May 20, 2015 denial, Lee filed a third pro se PCRA
Petition (the “Third Pro Se PCRA Petition”). (Doc. 102). Therein, Lee primarily argued that
the United States Supreme Court’s decision in Alleyne v. United States, 570 U.S. 99 (2013)
entitled him to relief from his judgment of sentence. (Doc. 102). The Commonwealth moved
to dismiss the Third Pro Se PCRA Petition on March 2, 2016. (Doc. 103, at 48-58). In
particular, the Commonwealth argued that the Third Pro Se PCRA Petition was untimely on
its face, and that Lee had failed to meet any of the three statutory time-bar exceptions under
the PCRA. (Doc. 103, at 48-58). The State PCRA Court granted the Commonwealth’s
motion, and dismissed the Third Pro Se PCRA Petition on March 16, 2016 for lack of
jurisdiction. (Doc. 104, at 1). Lee appealed this conclusion on March 28, 2016, (Doc. 104, at
2-3) but the state PCRA Court, without addressing Lee’s arguments on the merits, reiterated
that it lacked jurisdiction. (Doc. 104, at 4-8). Lee appealed this decision to the Pennsylvania
Superior Court, which affirmed the dismissal of the Third Pro Se PCRA Petition on February
21, 2017. (Doc. 108, at 1-9). Lee filed an allowance of appeal, which the State Supreme Court
denied on September 19, 2017. (Doc. 104, at 10-38; Doc. 104, at 39-40).
While his Second Pro Se PCRA Petition was pending before the PCRA Court, Lee,
again proceeding pro se, filed the instant petition for a writ of habeas corpus on September 11,
2013. (Doc. 1). With his petition, Lee submitted a motion seeking a stay and abeyance, as his
federal habeas petition was a “mixed” petition and contained unexhausted claims. (Doc. 3).
The undersigned United States Magistrate Judge granted Lee’s motion to stay on November
7

Case l:13-cv-0'','^3-YK-KM Document 113 Filed 04/nc>/19 Page 8 of 62

12, 2013, and stayed proceedings pending Lee’s exhaustion of his state court remedies. (Doc.
10).
On May 29, 2015, Lee informed this Court that his state court exhaustion efforts had
concluded and that he wished to proceed with his federal habeas action. (Doc. 14; Doc. 15).
The undersigned lifted the stay in the instant matter on August 20, 2015 (Doc. 16) and
directed Respondents (the “Commonwealth”) to file an answer, motion, or other response to
Lee’s habeas petition on August 24, 2015. (Doc. 19). The Commonwealth moved for an
extension of time on September 14, 2015 (Doc. 21), which this Court granted on September
15, 2015. (Doc. 22). Thereafter, Lee filed his memorandum in support of the present habeas
petition on October 19, 2015. (Doc. 23). The Commonwealth subsequently moved for several
other extensions of time, which were each granted. (Doc. 24; Doc. 25; Doc. 26; Doc. 27; Doc.
29; Doc. 30). On March 2, 2016, the Commonwealth filed an amended motion to stay
proceedings (Doc. 31), which was granted in part on March 4, 2016. (Doc. 33).
On October 19, 2017, Lee filed a motion to add federal claims that were litigated and
disposed of in connection with the Third Pro Se PCRA Petition. (Doc. 60). The undersigned
granted Lee’s motion on January 5, 2018 (Doc. 62), and Lee filed an amended habeas corpus
petition on January 26, 2018. (Doc. 63). On February 2, 2018, the Commonwealth moved
for another extension of time to respond to the claims in Lee’s amended habeas petition (Doc.
64), which the Court granted on February 5, 2018. (Doc. 64).
After receiving several additional extensions of time (Doc. 66; Doc. 67; Doc. 68; Doc.
69; Doc. 70; Doc. 71; Doc. 72; Doc. 73), the Commonwealth filed an answer to Lee’s petition
on July 10, 2018. (Doc. 74). In its answer, the Commonwealth asserts that all of Lee’s claims

8

Case l:13-cv-0°"r;3-YK-KM Document 113 Filed 04^/19 Page 9 of 62

are either procedurally barred, non-cognizable, or without merit.11 (Doc. 74). Lee filed a
Traverse to the Commonwealth’s answer on August 3, 2018. (Doc. 111).
Having been fully briefed, this petition is now ripe for disposition.
A. Habeas Claims Presented12
When liberally construed, Lee presents the following eighteen grounds for relief in his
federal habeas petition:
1)

That the PCRA Court failed to conduct an adequate and fair hearing
of Lee’s claims on collateral review by failing to hold a second day
of evidentiary hearings (the “PCRA Hearing Claim”) (Doc. 1, at 5;
Doc. 23, at 12-18);

2)

That Lee’s PCRA counsel rendered constitutionally deficient
assistance in connection with her handling of the evidentiary
hearings (the “PCRA Hearing Ineffectiveness Claim”) (Doc. 1, at 5;
Doc. 23, at 12-18);

3)

That the trial court’s failure to remove Jason Baney (“Mr. Baney”)
as a juror violated Lee’s Sixth Amendment Right to be tried by a fair
and impartial jury (the “Impartial Jury Claim”) (Doc. 1, at 7; Doc.
23, at 18-21);

4)

That Lee’s trial counsel rendered constitutionally deficient
assistance when he failed to obtain the removal of Mr. Baney as a
juror, and did not move for a mistrial due to Mr. Baney’s
participation in jury deliberations (the “Impartial Jury
Ineffectiveness Claim”) (Doc. 1, at 7; Doc. 23, at 21-27);

11 The Commonwealth does not contest the timeliness of Lee’s petition. (Doc. 74, at
21-22).
12 The Court notes that Lee frequently groups what appear to be several distinct claims
within a “single ground” for relief. (Doc. 1). Moreover, while Lee seemingly advances
multiple “layered” ineffective assistance of counsel claims, it is unclear whether he actually
intends to present any challenges to their underlying constitutional claims. Nonetheless, in
deference to Lee’s pro se status, the Court has liberally construed his arguments.
9

Case l:13-cv-0?~~3-YK-KM Document 113 Filed 04/r'o/19 Page 10 of 62

5)

That the trial court judge failed to properly instruct the jury on the
defense of entrapment, thereby violating Lee’s Fourteenth
Amendment rights (the “Jury Instruction Claim”) (Doc. 1, at 10-13;
Doc. 23, at 35-38);

6)

That Lee’s trial counsel rendered constitutionally deficient
assistance when he failed to object to the trial judge’s handling of the
entrapment instruction to the jury (the “Jury Instruction
Ineffectiveness Claim”) (Doc. 1, at 10; Doc. 23, at 38-39);

7)

That Lee’s trial counsel rendered constitutionally deficient
assistance when headvised Lee not to testify on his own behalf at
trial (the “Testimony Ineffectiveness Claim”) (Doc. 1, at 12; Doc.
23, at 40-49);

8)

That the lack of colloquy surrounding Lee’s decision not to testify at
trial was in error (the “Colloquy Claim”) (Doc. 1, at 12; Doc. 23, at
40-49);

9)

That Lee’s trial counsel rendered constitutionally deficient
assistance when he failed to ensure that the trial court conduct
colloquy on Lee’s decision not to testify on his own behalf (the
“Colloquy Ineffectiveness Claim”) (Doc. 1, at 12; Doc. 23, at 40-49);

10)

That Lee’s Appellate Counsel rendered constitutionally deficient
assistance when he failed to properly develop claims on direct
review, thereby resulting in the denial of Lee’s appeal (the
“Appellate Ineffectiveness Claim”) (Doc. 1, at 6).

11)

That the Commonwealth violated Brady v. Maryland by withholding
an alleged debriefing report from 2002, and then denying its
existence (the “Brady Violation Claim”) (Doc. 1, at 8; Doc. 23, at
27-31);

12)

That Lee’s trial counsel rendered constitutionally deficient
assistance when he failed to raise a Brady violation with respect to
the allegedly suppressed debriefing report (the “Brady Violation
Ineffectiveness Claim”) (Doc. 1, at 8; Doc. 23, at 49-55);

13)

That the Commonwealth relied upon perjured and inconsistent
witness testimony to obtain a conviction, thereby violating Lee’s
right to a fair trial (the “Peijury Claim”) (Doc. 1, at 11; Doc. 23, at
49-55)

14)

That Lee’s appellate counsel rendered constitutionally deficient
assistance when he failed to raise the issue of witness perjury on
10

Case l:13-cv-0?~~3-YK-KM Document 113 Filed 04/'''>,19 Page 11 of 62

direct appeal (the “Perjury Ineffectiveness Claim”) (Doc. 1, at 11;
Doc. 23, at 12-18);
15)

That the Commonwealth engaged in sentencing entrapment (the
“Sentencing Entrapment Claim”) (Doc. 1, at 13);

16)

That Lee’s sentence violates the Eight Amendment’s prohibition on
cruel and unusual punishment, as the statute under which he was
convicted was later rendered void ab initio (the “Sentence Claim”)
(Doc. 63, at 11-23);

17)

That declining to retroactively apply the holding in Alleyne to his
criminal case violates the Equal Protection Clause of the Fourteenth
Amendment (the “Equal Protection Claim”) (Doc. 63, at 11-23);
and

18)

That the Pennsylvania Supreme Court’s construction of the PCRA’s
jurisdictional time bar violates the Constitution (the “Statutory
PCRA Claim”) (Doc. 63, at 24-40).

The Court addresses each of these grounds for relief in turn.
II.

Discussion
A. Habeas Relief under 28 U.S.C. § 2254
Lee brings his petition pursuant to 28 U.S.C. § 2254,13 which permits federal courts to

issue habeas corpus relief for persons in state custody. While a prisoner may properly
challenge the “fact or duration” of his confinement through a § 2254 petition, see Preiser v.
Rodriguez, 411 U.S. 475 498-99 (1973), the statute sets “several limits on the power of a federal
court to grant an application for a writ of habeas corpus on behalf of a state prisoner.” Cullen
v. Pinholster, 563 U.S. 170,181 (2011). Further, “it is not the province of a federal habeas court
to reexamine state-court determinations on state-law questions.” Estelle v. McGuire, 502 U.S.

13 Lee’s § 2254 petition is governed by the Antiterrorism and Effective Death Penalty
Act of 1996 (“AEDPA”).
11

Case l:13-cv-0?^3-YK-KM Document 113 Filed 04/r'”/19 Page 12 of 62

62, 67-68 (1991); see also Pulley v. Harris, 465 U.S. 37, 41 (1984) (“A federal court may not
issue the writ on the basis of a perceived error of state law.”); Engle v. Isaac, 456 U.S. 107,120
n.19 (1982) (“If a state prisoner alleges no deprivation of a federal right, § 2254 is simply
inapplicable.”). Rather, federal habeas review is limited to claims based “on the ground that
[petitioner] is in custody in violation of the Constitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a); Estelle, 502 U.S. at 68. As such, a writ of habeas corpus is an
‘“extraordinary remedy’ reserved for defendants who were ‘grievously wronged’ by the
criminal proceedings.” See Dunn v. Colleran, 247 F.3d 450, 468 (3d Cir. 2001) (quoting
Calderon v. Coleman, 525 U.S. 141, 146 (1998)).
The statutory text of § 2254 additionally requires that federal courts give the
appropriate deference to the legal rulings and factual findings of state courts made during
criminal proceedings, and provides in pertinent part:
An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State court shall not be granted with respect to
any claim that was adjudicated on the merits in State court proceedings unless
the adjudication of the claim (1) resulted in a decision that was contrary to14, or involved an unreasonable
application of,15 clearly established Federal law, as determined by the Supreme
Court of the United States; or

14 A state court decision is “contrary” to clearly established federal law if “the state
court arrives at a conclusion opposite to that reached by th[e Supreme] Court on a question
of law or if the state court decides a case differently than th[e Supreme] Court has on a set of
materially indistinguishable facts.” Williams, 529 U.S. at 413.
15 A state court decision is an “unreasonable application” of clearly established federal
law if “(1) ‘the state court identifies the correct governing legal rule from [the] Court's cases
but unreasonably applies it to the facts of the particular ... case;’ or (2) ‘the state court either
unreasonably extends a legal principle from our precedent to a new context where it should
12

Case l:13-cv-0?~r'3-YK-KM Document 113 Filed 04/°"'19 Page 13 of 62

(2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
Thus, given these deferential standards of review, federal courts frequently decline
invitations by habeas petitioners to disturb the considered views of state courts. See Rice v.
Collins, 546 U.S. 333, 338-39 (2006);

also Warren v. Kyler, 422 F.3d 132, 139-40 (3d Cir.

2006); Gattis v. Snyder, 278 F.3d 222, 228 (3d Cir. 2002). Nonetheless, with respect to §
2254(d)(1), the Supreme Court defines “clearly established federal law” as “holdings, as
opposed to the dicta, of [the Supreme] Court's decisions as of the time of the relevant statecourt decision.” Williams v. Taylor, 529 U.S. 362, 412 (2000). Further, to warrant relief under
§ 2254(d)(1), a state court’s “unreasonable application of those holdings must be objectively
unreasonable, not merely wrong; even clear error will not suffice.” White v. Woodall, 134 S.
Ct. 1697, 1702 (2014). Regarding 28 U.S.C. § 2254(d)(2), “a determination of a factual issue
made by a State court shall be presumed to be correct” unless a petitioner can show, by clear
and convincing evidence, that the finding was erroneous. 28 U.S.C. § 2254(e)(1); see also
Simmons v. Beard, 590 F.3d 223, 231 (3d Cir. 2009) (“Under the § 2254 standard, a district
court is bound to presume that the state court's factual findings are correct, with the burden
on the petitioner to rebut those findings by clear and convincing evidence.”). Moreover,

not apply or unreasonably refuses to extend that principle to a new context where it should
apply.’” Appelv. Horn, 250 F.3d 203, 209 (3d Cir. 2001) (quoting Williams, 529 U.S. at 407).
13

Case l:13-cv-0?''^3-YK-KM Document 113 Filed 04/°o/19 Page 14 of 62

habeas relief will not be granted pursuant to § 2254(d)(2) if a reasonable basis existed for the
state court to make its factual finding. See Burtv. Titlow, 571 U.S. 12, 18 (2013).
B. Exhaustion and Procedural Default
The Commonwealth argues that several of Lee’s claims are procedurally defaulted,
and thus barred from habeas review. (Doc. 74, at 33-35). Generally, a federal district court
may not consider the merits of a habeas petition unless the petitioner has “exhausted the
remedies available” in state court. See 28 U.S.C. § 2254(b)(1)(A); O'Sullivan v. Boerckel, 526
U.S. 838, 842 (1999). “The exhaustion requirement is satisfied only if the petitioner can show
that he fairly presented the federal claim at each level of the established state-court system for
review.” Holloway v. Horn, 355 F.3d 707, 714 (3d Cir. 2004); see also O'Sullivan, 526 U.S. at
845 (“[T]he exhaustion doctrine is designed to give the state courts a full and fair opportunity
to resolve federal constitutional claims before those claims are presented to the federal
courts ... by invoking one complete round of the State's established appellate review
process.”). The United States Court of Appeals for the Third Circuit has further explained
that, to “fairly present” a claim for exhaustion purposes, the petitioner must advance “a
federal claim's factual and legal substance to the state courts in a manner that puts them on
notice that a federal claim is being asserted.” Bennett v. Superintendent Graterford SCI, 886 F.3d
268, 280 (3d Cir. 2018) (quoting McCandless v. Vaughn, 172 F.3d 255, 261 (3d Cir. 1999)).
Such notice may be conveyed through a petitioner’s:
“(a) reliance on pertinent federal cases employing constitutional analysis, (b)
reliance on state cases employing constitutional analysis in like fact situations,
(c) assertion of the claim in terms so particular as to call to mind a specific right
protected by the Constitution, and (d) allegation of a pattern of facts that is well
within the mainstream of constitutional litigation. ”

14

Case l:13-cv-0?or'3-YK-KM Document 113 Filed 04/^°/19 Page 15 of 62

McCandless v. Vaughn, 172 F.3d 255, 261-62 (3d Cir. 1999) (citing Evans v.
Court of Common Pleas, Del County, Pa., 959 F.2d 1227 (3d Cir. 1992))
Exhaustion under the AEDPA also “turns on an inquiry into what procedures are
‘available’ under state law.” O'Sullivan, 526 U.S. at 847. In Pennsylvania, a federal claim is
deemed exhausted once it is presented to the Superior Court of Pennsylvania—either on direct
appeal from a state criminal conviction or on appeal from a PCRA court's denial of post­
conviction relief—because the Pennsylvania Supreme Court is not considered an “available”
state court remedy. See Lambertv. Blackwell, 387F.3d210,233 (3d Cir. 2004) (declaring review
from the Pennsylvania Supreme Court to be “unavailable” for purposes of exhausting state
court remedies). However, “a claim will be deemed unexhausted if the petitioner ‘has the
right under the law of the State to raise, by any available procedure, the question presented,’
but has failed to do so.” Wilkerson v. Superintendent Fayette SCI, 871 F.3d 221, 227 (3d Cir.
2017), cert, denied sub nom. Wilkerson v. Lane, 138 S. Ct. 1170, 200 L. Ed. 2d 319 (2018) (citing
28 U.S.C. § 2254(c)).
On the other hand, “[w]hen a claim is not exhausted because it has not been ‘fairly
presented’ to the state courts, but state procedural rules bar the applicant from seeking further
relief in state courts, the exhaustion requirement is satisfied because there is ‘an absence of
available State corrective process.’” McCandless, 172 F.3d at 260 (quoting 28 U.S.C. §
2254(b)(l)(B)(i)); see also Coleman v. Thompson, 501 U.S. 722, 732 (1991) (“A habeas petitioner
who has defaulted his federal claims in state court meets the technical requirements for
exhaustion; there are no state remedies any longer ‘available’ to him.”). In such situations, a

15

Case l:13-cv-0?'''"3-YK-KM Document 113 Filed 04/r'o/19 Page 16 of 62

claim is deemed “procedurally defaulted,16 not unexhausted, and ... may be entertained in a
federal habeas petition only if there is a basis for excusing the procedural default.” Wenger v.
Frank, 266 F.3d 218, 223-24 (3d Cir. 2001); see also Lines v. Larkins, 208 F.3d 153, 160 (3d Cir.
2000); Wilkerson, 871 F.3d at 228 (“If a petitioner's federal claim was not ‘fairly presented,’
and further state-court review is no longer available under state law, the claim is ‘procedurally
defaulted’ ...”) (quotations omitted). Specifically, procedural default may be excused if a
petitioner can demonstrate “cause” for the defaulted claim, and “prejudice therefrom,” or that
a “failure to review his federal claim will result in a fundamental miscarriage of justice.”
Edwards v. Carpenter, 529 U.S. 446, 451 (2000); see also Coleman, 501 U.S. at 750.
Here, the Commonwealth argues that several of Lee’s claims are procedurally
defaulted, and thus ineligible for federal habeas review. (Doc. 74, at 29). In particular, the
Commonwealth asserts that Lee failed to present the following, distinct claims in state court:
the Impartial Jury Claim; the Jury Instruction Claim; the Colloquy Claim; the Colloquy
Ineffectiveness Claim; the Brady Violation Claim; and the PCRA Hearing Claim. (Doc. 74,
at 33-35). The Commonwealth further argues that the following claims are procedurally
defaulted on the basis of an independent and adequate state law ground: the Sentence Claim;
the Equal Protection Claim; and the Statutory Claim, insofar as it raises a violation of federal
law. (Doc. 74, at 34-35). According to the Commonwealth, Lee has also failed to demonstrate

16 “

The doctrine of procedural default prohibits federal courts from reviewing a state
court decision involving a federal question if the state court decision is based on a rule of state
law that is independent of the federal question and adequate to support the judgment. ” Bennett
v. Superintendent Graterford SCI, 886 F.3d 268, 281 (3d Cir. 2018) (citing Bey v. Superintendent,
856 F.3d 230, 236 (3d Cir. 2017)).
16

Case l:13-cv-0?''"3-YK-KM Document 113 Filed 04/°"'19 Page 17 of 62

any cause and prejudice that would excuse his procedural default of these claims. (Doc. 74,
at 35).
1.

Ground Three (Impartial Jury Claim), Ground Five (Jury Instruction
Claim), and Ground Eleven (Brady Violation Claim)

The Commonwealth first argues that Lee failed to raise the Impartial Jury Claim, the
Jury Instruction Claim, and the Brady Violation Claim as “separate and distinct” claims
during his direct appeal proceedings in state court. (Doc. 74, at 33-35). While the
Commonwealth acknowledges that Lee fairly presented the related Ineffectiveness Claims
(grounds four, six, and twelve) on collateral review, it asserts that Lee’s underlying
constitutional claims are procedurally defaulted. (Doc. 74, at 33). In response, when liberally
construed, Lee argues that he fairly presented the Impartial Jury Claim and the Brady
Violation Claim during his PCRA proceedings. (Doc. Ill, at 14-18, 25-31). Further, with
respect to the Jury Instruction Claim, Lee seemingly clarifies that he intends to proceed on
the Jury Instruction Ineffectiveness Claim alone. (Doc. Ill, at 19-22).
Upon review of the record, it is evident that Lee failed to raise the Impartial Jury
Claim, the Jury Instruction Claim, and the Brady Violation Claim on direct appeal. (Doc. 91,
at 2; Doc. 94, at 5-6, 35-40; Doc. 94). Further, despite presenting these claims as the basis for
ineffectiveness claims on collateral review, the “[m]ere similarity of claims is insufficient to
exhaust.” Duncan v. Henry, 513, U.S. 364, 366 (1995) (citing Picard v. Connor, 404 U.S. 270,
276 (1971) (“Only if the state courts have had the first opportunity to hear the claim sought
to be vindicated in a federal habeas proceeding does it make sense to speak of the exhaustion
of state remedies.”); see also Keller v. Larkins, 251 F.3d 408, 413-414 (3d Cir. 2001) (“It is not
sufficient that all the facts necessary to support the federal claim were before the courts, and
17

Case l:13-cv-0?''r"3-YK-KM Document 113 Filed 04/°°'19 Page 18 of 62

mere similarity of claims is insufficient to exhaust.”)- Indeed, for the purposes of exhaustion,
claims for ineffective assistance of counsel are generally treated as distinct from thenunderlying constitutional claims. See Gattis v. Snyder, 278 F.3d 222, 238 n. 6 (3d Cir. 2002)
(noting that petitioner’s ineffective assistance of trial counsel claim did not sufficiently present
the claim upon which it was based, as it involved “a completely different legal theory”);
Mathias v. Superintendent Frackville SCI, 876 F.3d 462, 479 n. 6 (3d Cir. 2017) cert, denied sub
nom. Mathias v. Brittain, 138 S.Ct. 1707 (2018) (Rejecting the notion that “simply because a
petitioner brings a claim of ineffective assistance of counsel or a state court adjudicates that
claim, every claim counsel is allegedly deficient for failing to raise necessarily has been fairly
presented to the state court as a federal claim.”); Willis v. Vaughn, 48 F. App’x 402, 406 (3d
Cir. 2002) (“Ineffective assistance of counsel claims and underlying due process claims are
distinct, and exhaustion of one does not constitute exhaustion of the other.”) (citing Senk v.
Zimmerman, 886 F.2d 611, 614 (3d Cir. 1989) (claim that counsel failed to challenge a jury
instruction concerns his attorney's performance and only indirectly implicates the underlying
claim)). Thus, insofar as Lee intends to raise the Impartial Jury Claim, the Jury Instruction
Claim, and the Brady Violation Claim, aside from his component ineffective assistance of
counsel claims, they are not properly exhausted.17

17 Even if these claims were properly exhausted by virtue of the State Court’s
consideration of their companion ineffectiveness claims, they would still fail, as discussed
infra.
18

Case l:13-cv-0?~''3-YK-KM Document 113 Filed 04/n"'19 Page 19 of 62

If Lee now attempted to present these unexhausted claims in state court, review would
no longer be available to him under Pennsylvania law.18 As such, these claims are deemed
technically exhausted but procedurally defaulted. See Coleman v. Thompson, 501 U.S. 722, 732
(1991); see also Wilkerson, 871 F.3d at 228; see also Bender v. Wynder, No. CIV A. 05-998, 2006
WL 1788350, at *11 (W.D. Pa. June 5, 2006), report and recommendation adopted, No. CIV A.
05-998, 2006 WL 1788312 (W.D. Pa. June 28, 2006) (“To the extent that [Petitioner] is
attempting to raise the purported constitutional violations that provide the basis for his
ineffective assistance of counsel claims as independent claims that entitle him to federal
habeas relief, those independent claims of constitutional error were not exhausted and are
therefore procedurally defaulted.”); Mattis v. Vaughn, 80 F. App'x 154, 157 (3d Cir. 2003)
(“[T]he underlying Brady claim in Mattis's habeas petition was procedurally defaulted; he
did not present the claim to the Pennsylvania Supreme Court on direct appeal, and he no
longer has a state remedy available.”). As mentioned supra, federal courts generally may not
consider the merits of procedurally defaulted claims unless the petitioner can demonstrate

18Judgment becomes final at the conclusion of direct review, which includes
discretionary review in the Supreme Court of the United States and the Supreme Court of
Pennsylvania, or at the expiration of the time for seeking that review. 42 Pa.C.S.A. §
9545(b)(3); Commonwealth v. Owens, 718 A.2d 330 (Pa. Super. Ct. 1998). Here, because Lee’s
conviction became final well over a year ago, any attempt to now go back and file a new
PCRA petition would be barred as untimely under 42 Pa.C.S.A. § 9545(b). Further, Lee may
also be barred from raising these unexhausted claims under the PCRA’s waiver provision. See
42 Pa.C.S.A. § 9544(b) (barring a petitioner from filing a claim under the PCRA “if the
petitioner could have raised it but failed to do so before trial, at trial,... on appeal or in a prior
state postconviction proceeding.”).
19

Case l:13-cv-0?''^3-YK-KM Document 113 Filed 04/n"19 Page 20 of 62

either cause19 for the procedural default and actual prejudice20 resulting therefrom, or that a
fundamental miscarriage of justice will result21 if the. court does not review the
claims. See McCandless v. Vaughn, 172 F.3d 255, 260 (3d Cir. 1999); Coleman, 501 U.S. at 75051. Accordingly, the Court considers whether any basis exists to excuse Lee’s procedural
default. See Mala v. Crown Bay Marina, Inc., 704 F.3d 239, 244-46 (3d Cir. 2013) (noting a
court’s obligation to liberally construe the filings of incarcerated pro se litigants).
In his Traverse, Lee appears to argue that any procedural default should be excused
on the basis of his PCRA Counsel’s ineffectiveness. (Doc. Ill, at 3-8). Notably, Lee relies
upon the United States Supreme Court’s decision in Martinez v. Ryan, 566 U.S. 1 (2012) to
support this contention. (Doc. Ill, at 3-5). In Martinez, the Supreme Court recognized that,
under certain circumstances, the procedural default of an ineffective assistance of trial counsel
claim may be excused where the default was caused, in turn, by ineffective assistance of
counsel in initial post-conviction collateral proceedings. See Martinez v. Ryan, 566 U.S. 1, 818 (2012). Specifically, the Supreme Court held that:
Where, under state law, claims of ineffective assistance of trial counsel must be
raised in an initial-review collateral proceeding, a procedural default will not
bar a federal habeas court from hearing a substantial claim of ineffective

19 To show “cause,” a petitioner must establish “that some objective factor external to
the defense impeded [the petitioner's] efforts to comply with the State's procedural
rule.” Murray v. Carrier, All U.S. 478, 488 (1986).
20 A petitioner satisfies the “prejudice” prong by showing that the trial was “unreliable
or ... fundamentally unfair” because of a violation of federal law.20 Lockhart v. Fretwell, 506
U.S. 364, 372(1993).
21 In order to demonstrate a “fundamental miscarriage of justice,” a petitioner must
present new evidence to show “that constitutional error has resulted in the conviction of one
who is actually innocent of the crime.” Schlup v. Delo, 513 U.S. 298, 324 (1995).
20

Case l:13-cv-0?',"3-YK-KM Document 113 Filed 04/°"'19 Page 21 of 62

assistance at trial if, in the [state] initial-review collateral proceeding, there was
no counsel or counsel in that proceeding was ineffective.
Martinez, 566 U.S. at 17.
Here, Lee’s procedurally defaulted claims (the Impartial Jury Claim, the Jury
Instruction Claim, and the Brady Violation Claim) do not pertain to any procedurally
defaulted ineffective assistance of trial counsel claims. Rather, they pertain to the procedurally
defaulted substantive claims that form the basis of Lee’s ineffectiveness claims. As such, Lee’s
reliance on Martinez is misplaced, and does not excuse his procedural default. See Watson v.
Clark, No. L16-CV-0874, 2019 WL 1099018, at *6 (M.D. Pa. Mar. 8, 2019)
(“[B]ecause Martinez applies only to defaulted claims of ineffective assistance of trial counsel,
not trial court error, the exception is not available.”) (citing Davila v. Davis,---- U.S.
137 S.Ct. 2058, 2065 (2017). Further, Lee has not demonstrated that a miscarriage of justice
would occur if the Court failed to address the merits of his procedurally defaulted claims.22

22 Although not raised by Lee, the Court observes that ineffective assistance of counsel
on direct appeal may also establish cause to excuse procedural default. See Coleman, 501 U.S.
at 753-54; see also Martinez, 566 U.S. at 11 (“[A]n attorney’s errors during an appeal on direct
review may provide cause to excuse a procedural default; for if the attorney appointed by the
State to pursue the direct appeal is ineffective, the prisoner has been denied fair process and
the opportunity to comply with the State’s procedures and obtain an adjudication on the
merits of his claims.”). However, “to excuse procedural default of an underlying claim, a
claim of ineffective assistance of direct appeal counsel must have been exhausted itself and
may not be procedurally defaulted.” Williams v. Garman, No. 2:15-CV-06066, 2019 WL
1046024, at *2 (E.D. Pa. Mar. 4, 2019) (citing Edwards v. Carpenter, 529 U.S. 446, 448 & 451453 (2000). Further, the ineffective assistance of direct appeal counsel claim must constitute
a constitutional deprivation under Strickland v. Washington, 466 U.S. 668 (1984). United States
v. Mannino, 212 F.3d 835, 840 (3d Cir. 2000). Nonetheless, Lee has not shown that cause
exists to excuse his procedural default on these grounds.
21

Case l:13-cv-0?~~3-YK-KM Document 113 Filed 04/°"'19 Page 22 of 62

Thus, it is recommended that the Impartial Jury Claim (ground three), the Jury
Instruction Claim (ground five), and the Brady Violation Claim, insofar as Lee asserts them
as separate claims from their related ineffectiveness claims, be DISMISSED as procedurally
defaulted, without justifiable cause to excuse such procedural default.
2.

Ground Eight (Colloquy Claim) and Ground Nine (Colloquy
Ineffectiveness Claim)

The Commonwealth next argues that Lee failed to raise both the Colloquy Claim and
the related Colloquy Ineffectiveness Claim “at any time” during his state court proceedings.
(Doc. 17, at 34). The Commonwealth does not dispute that Lee fairly presented a claim that
alleged his counsel was ineffective for advising him not to testify at trial (the Testimony
Ineffectiveness Claim). (Doc. 74, at 34). However, the Commonwealth asserts that the
Colloquy Claim and the Colloquy Ineffectiveness Claim are separate and distinct claims from
the Testimony Ineffectiveness Claim, and involve different legal questions. (Doc. 74, at 34).
In response, Lee contends that he clearly raised the Colloquy Ineffectiveness Claim in the
context of the Testimony Ineffectiveness Claim throughout his PCRA proceedings. (Doc.
Ill, at 23).
Upon review of the record, it appears that Lee’s First Amended PCRA Petition raises
the Colloquy Ineffectiveness Claim as a variation of his Testimony Ineffectiveness Claim.
(Doc. 94, at 60-61, K 137; Doc. 94, at 63, U 157; Doc. 94, at 64, ]|163). Lee’s second pro se

22

Case l:13-cv-0?

3-YK-KM Document 113 Filed 04/°o/19 Page 23 of 62

statement of matters complained of on first PCRA appeal (“Second Statement”)23 further
argues that the court erred in finding that his trial and appellate counsel were ineffective for
“failing to object to lack of colloquy.” (Doc. 98, at 17). Additionally, Lee’s pro se brief before
the Superior Court on first PCRA appeal argues that counsel was ineffective for “erroneously
advising [him that] he could not testify, and interfering with [his] constitutional rights, and
for failing to conduct a colloquy to ensure that it was truly [his] desire [] not to testify...”
(Doc. 99, at 32-33). Thus, to the extent they may have been presented, it appears that Lee
grouped his Colloquy Claim and Colloquy Ineffectiveness Claim with his Testimony
Ineffectiveness Claim on collateral review in state court.
Nonetheless, the Court agrees with the Commonwealth insofar as “[t]he right to testify
qualitatively differs from those constitutional rights which can be waived only after the court
inquires into the validity of the waiver.” See United States v. Pennycooke, 65 F.3d 9, 11 (3d Cir.
1995). Indeed, “[a] defendant has no right to a colloquy with the trial court in which he is
advised of his right to testify either under federal law [] or Pennsylvania law.” Santiago v.
Kerestes, No. 1:CV-11-1319, 2013 WL 4041155, at *6 n. 5 (M.D. Pa. Aug. 7, 2013) (citing
Pennycooke, 65 F.3d at 11; Commonwealth v. Baldwin, 8 A.3d 901, 907 n. 5 (Pa. Super. Ct.
2010); Commonwealth v. Todd, 820 A.2d 707, 712 (Pa. Super. Ct. 2003); see also Young v.
Diguglielmo, No. CIV.A 04-3846,2009 WL 1314863, at *20 n. 9 (E.D. Pa. May 8, 2009) (“The

23 The Court notes that Lee failed to raise this argument in his first pro se statement of
matters complained of on first PCRA appeal, dated August 20, 2012. However, as the state
court reinstated Lee’s right to appeal the denial of his First Amended PCRA Petition, the
Court considers Lee’s Second Statement here.
23

Case l:13-cv-0?^3-YK-KM Document 113 Filed 04/

19 Page 24 of 62

Third Circuit has held (as have the majority of courts of appeals that have ruled on the issue)
that ‘a trial court has no duty to explain to the defendant that he or she has a right to testify or
to verify that the defendant who is not testifying has waived the issue voluntarily.’”).
Accordingly, without deciding upon whether Lee “fairly presented” the Colloquy Claim for
exhaustion purposes, the Court finds that it is without merit. See Evans v. Court of Common
Pleas, Delaware Cty., Pa., 959 F.2d 1227, 1231 (3d Cir. 1992) (“[A] district court may deny
a claim on its merits despite non-exhaustion “if it is perfectly clear that the applicant does not
raise even a colorable federal claim.”) (citing Granberry v. Greer, 481 U.S. 129, 135 (1987)); see
also Williams v. Garman, No. 2:15-CV-06066, 2019 WL 1046024, at *3 (E.D. Pa. Mar. 4, 2019)
(“[TJhis Court need not determine whether [petitioner’s PCRA petition ‘fairly presented’ all
the grounds for [petitioner’s ineffective assistance of direct appeal counsel argument because,
as discussed below, the argument lacks merit.”). Specifically, insofar as Lee complains that
the lack of colloquy regarding his decision not to testify violated his constitutional rights, such
a claim is not cognizable on federal habeas review. See 28 U.S.C. § 2254(a) (Requiring that a
person in custody pursuant to the judgment of a state court may challenge the legality of his
state incarceration on the ground that it is, or was imposed, “in violation of the laws or treaties
of the United States”); see also Santiago, 2013 WL 4041155, at *6 n. 5; Young, 2009 WL
1314863, at *20 n. 9.
Similarly, to the extent that Lee argues his trial counsel provided constitutionally
deficient assistance in failing to object to the lack of colloquy, the Court is not persuaded.
“Under Strickland, courts are precluded from finding that counsel was ineffective unless they
find both that counsel’s performance fell below an objectively unreasonable standard, and
that the defendant was prejudiced by that performance.” Marshall v. Hendricks, 307 F.3d 36,
24

Case l:13-cv-0?'',~3-YK-KM Document 113 Filed 04/^o/19 Page 25 of 62

85 (3d Cir. 2002). However, “counsel cannot be deemed ineffective for failing to raise a
meritless claim.” See Werts v. Vaughn, 228 F.3d 178, 203 (3d Cir. 2000). Here, as neither
federal nor state law entitles Lee to receive a colloquy from the court regarding his right to
testify, the Court is hard pressed to find that counsel rendered constitutionally deficient
assistance regarding the Colloquy Ineffectiveness Claim.24
Accordingly, the Court respectfully recommends that, to the extent Lee intended to
assert this claim in his federal habeas petition, the Colloquy Claim (ground eight) be DENIED
as non-cognizable. The Court further recommend that Lee’s related Colloquy Ineffectiveness
claim be DENIED as meritless.
3.

Ground One (PCRA Hearing Claim) and Ground Two (PCRA Hearing
Ineffectiveness Claim)25

When liberally construed, Lee’s habeas petition also raises claims regarding the
adequacy of his post-conviction relief proceedings and counsel. (Doc. 1, at 5). Specifically,
Lee argues that he was deprived of his right to fully and fairly litigate his claims on collateral
review because the PCRA Court declined to conduct a second day of evidentiary hearings,
thereby leading to an undeveloped PCRA record. (Doc. 1, at 5; Doc. 23, at 12-18; Doc. Ill,

24 The Court recognizes that “in exceptional, narrowly defined circumstances, judicial
interjection through a direct colloquy with the defendant may be required to ensure that the
defendant's right to testify is protected.” Pennycooke, 65 F.3d at 12. However, as the Court
finds that Lee was not deprived of his constitutional right to testify, as discussed infra, this
narrow exception does not apply here.
25 The Commonwealth appears to argue that the PCRA Hearing Claim is procedurally
defaulted (Doc. 74, at 35), and that the PCRA Hearing Ineffectiveness Claim is frivolous.
(Doc. 74, at 57-58). For the sake of clarity, however, the Court addresses both claims together.
25

Case l:13-cv-0?''^-YK-KM Document 113 Filed 04/^n/19 Page 26 of 62

at 32). Lee also complains that his PCRA counsel failed to provide constitutionally adequate
representation in connection with her handling of the evidentiary hearings. (Doc. 23, at 1218; Doc. Ill, at 32). In response, the Commonwealth argues that Lee failed to advance the
PCRA Hearing Claim in state court, thereby leading to its procedural default.26 (Doc. 74, at
35). Notably, Lee concedes that he “never ‘formally’ litigated” this claim, however blames
any procedural default on his PCRA counsel’s ineffectiveness. (Doc. 111, at 31-32).
In support of his argument that “cause” exists to excuse his procedural default, Lee
again cites to Martinez v. Ryan, 566 U.S. 1 (2012). (Doc. Ill, at 31). As discussed supra, the
Supreme Court in Martinez recognized a “narrow exception” to the general rule that errors
made by PCRA counsel do not establish cause to overcome a petitioner’s procedural default.
Martinez, 566 U.S. at 132. However, Martinez only applies to defaulted claims of ineffective
assistance of trial counsel. See Martinez, 566 U.S. at 9 (“Inadequate assistance of counsel at
initial-review collateral proceedings may establish cause for a prisoner’s procedural default of
a claim of ineffective assistance at trial.”) (emphasis added); see also Davila v. Davis,---- U.S.
, 137 S.Ct. .2058, 2065 (2017) (declining to extend Martinez to defaulted claims of
ineffective assistance of appellate counsel). Here, as Lee complains of his PCRA counsel’s
failure to correct alleged deficiencies that occurred during his collateral proceedings, Martinez
is inapplicable. See Coleman v. Thompson, 501 U.S. 722, 754-55 (1991) (holding that “an

26 The Commonwealth does dispute that Lee advanced the “separate and distinct
claim” that his PCRA Counsel was ineffective “for failing to file a notice of appeal or notify
Mr. Lee of the dismissal of the dismissal of his (PCRA) and of his appellate rights.” (Doc. 74,
at 35).
26

Case l:13-cv-0?''^-YK-KM Document 113 Filed 04/

19 Page 27 of 62

attorney's errors in a postconviction proceeding do not qualify as cause for a default.”). Thus,
no cause exists to excuse Lee’s procedural default of the PCRA Hearing Claim.27
Further, to the extent that Lee argues he is entitled to federal habeas relief because of
his counsel’s handing of the first PCRA appeal, the Commonwealth asserts that any related
Ineffectiveness Claim is frivolous. (Doc. 74, at 57). Specifically, the Commonwealth contends
that the state courts already considered this matter upon reviewing Lee’s Second Pro Se PCRA
Petition and granted him relief in the form of reinstated PCRA appeal rights.28 (Doc. 74, at

27 The Court observes that “[t]he federal role in reviewing an application
for habeas corpus is limited to evaluating what occurred in the state or federal proceedings
that actually led to petitioner’s conviction; what occurred in the petitioner’s collateral
proceeding does not enter into the habeas calculation.” Hassine v. Zimmerman, 160 F.3d 941,
954 (3d Cir. 1998); see also Lambert v. Blackwell, 387 F.3d 210, 247 (3d Cir. 2004)
(“[H]abeas proceedings are not the appropriate forum ... to pursue claims of error at
the PCRA proceeding.... It is the original trial that is the ‘main event’ for habeas purposes.”).
Thus, even if it were not barred as procedurally defaulted, the Court would be unable to
entertain Lee’s PCRA Hearing Claim. See Wiley v. Bickell, No. CV 14-1361, 2016 WL
2346733, at *3 (E.D. Pa. May 4, 2016) (“To the extent that Petitioner separately challenges
the procedural adequacy of his PCRA hearing, this Court may not consider his claim.”); see
also Bender v. Wynder, No. CIV A. 05-998, 2006 WL 1788350, at *10 (W.D. Pa. June 5,
2006), report and recommendation adopted, No. CIV A. 05-998, 2006 WL 1788312 (W.D. Pa.
June 28, 2006) (the denial of requests for evidentiary hearings is not cognizable on habeas
review, as “[t]he issue of whether a PCRA petitioner is entitled to an evidentiary hearing is a
question of state law that is not subject to review by a federal court.”) (citing Preister v.
Vaughn, 382 F.3d 394, 402 (3d Cir. 2004)).
28 The Court notes, without expressly deciding, that Lee’s ineffective assistance of
counsel argument may also be moot on these grounds. See Rose v. McGrady, No. CIV. A. 09217E, 2012 WL 1288768, at *5 (W.D. Pa. Apr. 16, 2012) (Ineffective assistance of plea
counsel claim regarding attorney’s failure to file post sentence motion rendered moot, as the
petitioner’s right to file said motions was reinstated); Zeyon v. Pitkins, No. CIVA09-2886, 2010
WL 1135728, at *15 (E.D. Pa. Mar. 1, 2010), report and recommendation adoptedtNo. CIV. A.
09-2886, 2010 WL 1068179 (E.D. Pa. Mar. 17, 2010) (Finding ineffective assistance of
counsel claim moot, as the state courts “remedied any constitutional error that may have
27

Case l:13-cv-02‘ 3-YK-KM Document 113 Filed 04/°“'19 Page 28 of 62

58). Notwithstanding this argument, the Court observes it is well established that “there is no
right to counsel for state post-conviction proceedings

and,

therefore,

no claim of

constitutionally ineffective assistance of counsel may be made.” Greene v. Superintendent
Smithfield Sci, 882 F.3d 443, 450 (3d Cir. 2018) (quoting Swegerv. Chesney, 294 F.3d 506, 522
n.16 (3d Cir. 2002)); see also 28 U.S.C. § 2254(i) (“The ineffectiveness or incompetence of
counsel during ... State collateral post-conviction proceedings shall not be a ground for relief
in a proceeding arising under section 2254”). Thus, any claim pertaining to the alleged
ineffectiveness of Lee’s PCRA counsel, including the PCRA Hearing Ineffectiveness Claim,
is not cognizable on federal habeas review.
Accordingly, the Court respectfully recommends that the PCRA Hearing Claim
(ground one) be DENIED as procedurally defaulted. The Court further recommends that the
PCRA Hearing Ineffectiveness Claim (ground two), or any other claim alleging ineffective
assistance of Lee’s PCRA counsel, be DENIED as non-cognizable.
4.

Ground Fifteen (the Sentencing Entrapment Claim)

Lee’s federal habeas petition also raises a Sentencing Entrapment Claim. (Doc. 1, at
13). In its answer, the Commonwealth acknowledges that Lee argued he was the victim of
sentencing entrapment on direct review in state court. (Doc. 74, at 6-10). However, the
Commonwealth also submits that Lee’s post-sentence motion, and subsequent statements of

resulted from trial counsel's performance by providing [petitioner] a second opportunity to
raise his [unexhausted] claim on direct appeal.”).
28

Case l:13-cv-0?"_3-YK-KM Document 113 Filed 04/^'19 Page 29 of 62

matters complained upon on appeal, did not label the Sentencing Entrapment claim as
“federal.” (Doc. 74, at 6-10). The Commonwealth additionally asserts that Lee exclusively
cited to Pennsylvania legal authorities in support of this claim during direct review
proceedings, and that the state courts solely relied on Pennsylvania law in their disposition of
the matter. (Doc. 74, at 6-10). Accordingly, the Commonwealth appears to implicitly argue
that Lee failed to “fairly present” the Sentencing Entrapment Claim, or otherwise alert the
state courts to the presence of a federal claim, for exhaustion purposes.
Upon review of the state court record, Lee’s Sentencing Entrapment Claim entirely
relies upon state,29 as opposed to federal, law. (Doc. 88, at 48; Doc. 88, at 72; Doc. 88, at 8889; Doc. 89, at 65-66). Further, the state court decided this claim on the merits applying state
law, and found that Lee had “failed to carry the heavy burden necessary to demonstrate
sentencing entrapment.” (Doc. 91, at 15-16). Moreover, nowhere in Lee’s habeas petition
does he indicate how the alleged sentencing entrapment violated his constitutional rights.30

29 Lee’s post-sentence motion expressly asserts that “[t]he theory of sentencing
entrapment has been recognized by appellate courts in Pennsylvania.” (Doc. 88, at 48).
30 Even if the Court liberally construed Lee’s argument as raising alleged violations of
the Due Process Clause, his claim is unpersuasive here. Notably, “to raise successfully the
defense of sentencing entrapment, the defendant has the burden of showing that the
government engaged in outrageous or extraordinary misconduct designed to increase the
defendant’s sentence.” Com. v. Morales, 80 A.3d 1177, 1179 (2013). Here, the crux of Lee’s
Sentencing Entrapment Claim is that the Commonwealth delayed his arrest to use Ebeling as
a confidential informant against him. (Doc. 1, at 13). This, Lee argues, effectively “force[d]”
him to secure an increased amount of drugs, which led to a greater penalty under the
sentencing guidelines. (Doc. 1, at 13). However, “it is not a violation of due process for the
police to ‘intentionally delay[ ] [a] sting operation’ in an effort to subject a suspect to a greater
penalty.” Sed, 601 F.3d at 231 (citing U.S. v. Tykarsky, 446 F.3d 458, 476 n. 13 (3d Cir. 2006)
(finding that the delaying a sting did not result in the commission of a “greater offense,” and
29

Case l:13-cv-0?' 3-YK-KM Document 113 Filed QAI^'IS Page 30 of 62

(Doc. 1, at 3). However, even assuming arguendo that Lee fairly presented the federal basis of
this claim, it would be without merit. See Evans v. Court of Common Pleas, Delaware Cty., Pa.,
959 F.2d 1227, 1231 (3d Cir. 1992). Indeed, “if the state court denies the claim on the merits,
the claim is barred in federal court unless one of the exceptions to § 2254(d) set out in §§
2254(d)(1) and (2) applies.” Harrington v. Richter, 562 U.S. 86, 103 (2011). Here, the Supreme
Court has not formally adopted the theory of sentencing entrapment,31 or sentencing

only affected the “timing of the offense.”). Further, “other courts of appeals have held that it
does not offend due process for the police to ‘persist in ascertaining what quantity [of drugs a
defendant is] willing and able to deal,’ and ‘that the ultimate seizure of a larger quantity of
illegal drugs from a suspect in connection with the arrest has positive societal consequences;
eradicating illegal drugs from society is a legitimate, if not the primary, goal of drug
enforcement officials.’” Sed, 601 F.3d at 231. Thus, assuming arguendo that Lee’s claim is
cognizable, the Court is not convinced that the state court’s decision to deny the Sentencing
Entrapment Claim on direct review was contrary to clearly established federal law, as the
alleged conduct was not sufficiently outrageous to violate Lee’s constitutional Due Process
Rights.
31 As described by the United States Court of Appeals for the Third Circuit,
“[sentencing entrapment, under its most expansive formulation, ‘occurs when official
conduct leads an individual otherwise indisposed to dealing in a larger quantity or different
type of controlled substance to do so, and the result is a higher sentence.’” United States v. Sed,
601 F.3d 224, 230 (3d Cir. 2010) (citing United States v. Martin, 583 F.3d 1068, 1073 (8th
Cir. 2009)). Although recognized under Pennsylvania Law, the Third Circuit has neither
adopted nor rejected the doctrine of sentencing entrapment. United States v. McLean, 199 F.
Supp. 3d 926, 931 (E.D. Pa. 2016); Sed, 601 F.3d at 229; Com. v. Kittrell, 2011 PA Super 60,
19 A.3d 532, 539 (2011) (“Sentencing entrapment is a federal doctrine which has been
adopted by this Court.”) (citing Commonwealth v. Petzold, 701 A.2d 1363 (Pa. Super. 1997)).
Nonetheless, the only United States Supreme Court precedent, and not decisions made by
federal courts of appeals, constitutes “clearly established federal law” under the AEDPA. See
28 U.S.C. § 2254(d); Renico v. Lett, 559 U.S. 766, 778-79 (2010) (noting that a circuit court’s
interpretation of federal law “does not constitute ‘clearly established federal law, as
determined by the Supreme Court.’”) (quoting 28 U.S.C. 2254(d)(1)).
30

Case l:13-cv-0?''~3-YK-KM Document 113 Filed 04/°''#19 Page 31 of 62

manipulation for that matter.32 Thus, for the purposes of federal habeas relief, Lee has not
shown that he is in custody based on a decision that was “contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States. »33 See 28 U.S.C. 2254(d)(1); Dority v. Dowling, No. CIV-15-30-D,
2016 WL 8578262, at *6 (W.D. Okla. Oct. 27, 2016), report and recommendation adopted sub
nom. Dority v. Royal, No. CIV-15-30-D, 017 WL 1088299 (W.D. Okla. Mar. 22, 2017)
(denying habeas petitioner’s sentencing entrapment claim, as he “cannot show he is in
custody in violation of the federal constitution based on this claim.”); Sosa v. Jones, 389 F.3d
644, 647 (6th Cir. 2004) (denying writ of habeas corpus because “the Supreme Court
precedent that formulated the defense of entrapment does not rely on due process, and the
related concept of sentencing entrapment has never been accepted by the Supreme Court.”);
see also United States v. Russell, 411 U.S. 423, 433 (1973) (the defense of entrapment, which
pertains to a defendant’s “predisposition to commit [a] crime,” is “not of a constitutional
dimension.”).

32 Sentencing Manipulation is a related, but distinct, legal doctrine that “occurs when
the government unfairly exaggerates the defendant's sentencing range by engaging in a longerthan-needed investigation and, thus, increasing the drug quantities for which the defendant is
responsible.” United States v. McLean, 199 F. Supp. 3d 926, 929 (E.D. Pa. 2016) (citing Sed,
601 F.3d at 231). Here, even if Lee’s grounds for habeas relief could liberally be construed as
asserting a claim for Sentencing Manipulation, the Court’s determination here would remain
the same.
33 As Lee does not argue that denying the Sentencing Entrapment Claim was based
upon an unreasonable determination of the facts, 28 U.S.C. § 2254(d)(2) does not apply.
31

Case l:13-cv-0?"~3-YK-KM Document 113 Filed 04/rn,19 Page 32 of 62

Accordingly, assuming arguendo that Lee fairly presented a federal basis for this claim
to the state courts, the Court respectfully recommends that Lee’s Sentencing Entrapment
Claim (ground fifteen) be DENIED as meritless.
5.

Ground Sixteen (Sentence Claim) and Ground Seventeen (Equal
Protection Claim)

The Commonwealth additionally argues that the Sentence Claim and the Equal
Protection Claim (Doc. 63, at 11-23) are procedurally defaulted. (Doc. 74, at 35). The
Commonwealth asserts that Lee did not file the Sentence Claim or the Equal Protection
Claim on a timely basis, thereby depriving the state courts of jurisdiction to consider these
claims. (Doc. 74, at 35). As such, the Commonwealth contends that these claims are barred
from federal habeas review, as the state courts rejected them based on an independent and
adequate state law ground. (Doc. 74, at 35). In response, Lee argues that cause and prejudice
exists to excuse any procedural default. (Doc. Ill, at 33-38).
Under the Pennsylvania PCRA, a person may file a petition—including a second or
subsequent petition—within one year of when the date of their judgment of conviction
becomes final. See 42 Pa.C.S.A. § 9545(b). “[T]his one-year limitation is a jurisdictional rule
that precludes consideration of the merits of any untimely PCRA petition, and it is strictly
enforced in all cases, including death penalty appeals.” Whitney v. Horn, 280 F.3d 240, 251
(3d Cir. 2002) (citing Commonwealth v. Peterkin, 722 A.2d 638, 642 (1998)). Here, the
Pennsylvania Superior Court considered the timeliness of Lee’s Third Pro Se PCRA Petition,
which raised the Sentence Claim and the Equal Protection Claim therein, under 42 Pa.C.S.A.
§ 9545(b), and found that it was untimely on its face. (Doc. 108, at 5-9). The Pennsylvania
Superior Court additionally found that Lee had failed to prove the applicability of any
32

Case l:13-cv-0?"“3-YK-KM Document 113 Filed 04/n"T9 Page 33 of 62

timeliness exception under 42 Pa.C.S.A. § 9545(b)(1). (Doc. 108, at 6). Thus, it is evident that
the state court dismissed Lee’s Third Pro Se PCRA Petition on an independent and adequate
state court ground, and that the Sentence Claim and the Equal Protection Claim are
consequently procedurally defaulted. See Hutchinson v. Pennsylvania Bd. ofProb. & Parole, 457
F. App’x 101,102-03 (3d Cir. 2011) (“[T]he state courts' refusal to hear an untimely challenge
to a Parole Board decision is an independent and adequate basis in state law for denying
federal habeas relief.”); Peterson v. Brennan, 196 F. App’x 135, 142 93e Cir. 2006) (same);
Saunders v. Lamas, No. 12-7131, 2015 WL 9451022, at *25 (E.D. Pa. Aug. 13, 2015), report
and recommendation adopted, No. CV 12-7131, 2015 WL 9450811 (E.D. Pa. Dec. 23
2015) (“This claim is procedurally defaulted because [the habeas petitioner] raised it for the
first time in his second PCRA petition, which was denied as untimely based on adequate and
independent state grounds.”).
In addition, Lee has failed to demonstrate that any basis exists to excuse this
procedural default. In his traverse, Lee apparently argues that the state court’s
implementation and “flawed” interpretation of the timeliness statute itself, 42 Pa.C.S.A. §
9545(b), constitutes justifiable cause. (Doc. Ill, at 34-35). Specifically, Lee states that the
state court’s “enforcement” of 42 Pa.C.S.A. § 9545(b) impeded his litigation efforts. (Doc.
Ill, at 38). Lee further argues that there is prejudice because he is serving a sentence that is

33

Case l:13-cv-0r ^3-YK-KM Document 113 Filed 04/°'',19 Page 34 of 62

not authorized by statute “while others reap the benefits of the U.S. Supreme Court’s holding
in Alleynev. United States, [570 U.S. 99] (2015). ”34 (Doc. Ill, at 34-35).
Lee’s arguments, which are substantially similar to his submissions regarding the
Statutory PCRA Claim (ground eighteen, discussed infra),35 fail to establish “that some
objective factor external to the defense impeded [the petitioner's] efforts to comply with the
State's procedural rule.” Murray v. Carrier, All U.S. 478, 488 (1986). Simply stated, while Lee
may challenge the PCRA’s statute of limitations provision in and of itself, he has failed to
establish that any extraordinary circumstance impeded his ability to pursue post-conviction
relief.36 Further, Lee does not meet the fundamental miscarriage of justice exception, as he

34 In Alleyne, the Supreme Court held that “facts that increase mandatory minimum
sentences must be submitted to the jury.” Alleyne, 570 U.S. at 116. However, the Supreme
Court “has not chosen to apply Alleyne's new rule retroactively to cases on collateral review.”
United States v. Reyes, 755 F.3d 210, 213 (3d Cir. 2014); see also Arnold v. Superintendent SCI
Frackville, No. CV 16-5539, 2017 WL 10152449, at *13 E.D. Pa. July 25, 2017), report and
recommendation adopted, 322 F. Supp. 3d 621 (E.D. Pa. 2018) (“[Petitioner’s] claim
under Alleyne is foreclosed because the Pennsylvania Supreme Court [] explicitly held that
‘Alleyne does not apply retroactively to cases pending on collateral review.’”) (citing
Commonwealth v. Washington, 142 A.3d 810, 820 (Pa. 2016)).
35 The Commonwealth asserts that the Statutory PCRA Claim (ground eighteen), to
the extent that it alleges a violation of federal law, is also procedurally defaulted on this basis.
As Lee raised the Statutory PCRA Claim in his Third Pro Se PCRA Petition, which the
Pennsylvania Superior Court also ultimately rejected as untimely, the Court agrees that such
a claim would be procedurally defaulted on these same grounds. (Doc. 105, at 9; Doc. 108,
at 5-9). Nonetheless, the Court addresses the merits of Lee’s claim infra, to the extent it does
not involve alleged violations of federal law.
36 Insofar as Lee may contend that the eventual disposition Alleyne constitutes cause to
overcome his untimely filed Third Pro Se PCRA Petition, “judicial decisions are not
‘extraordinary circumstances.’” Grove v. Attorney Gen. ofPennsylvania, No. 16-CV-5154, 2017
WL 2952921, at *5 (E.D. Pa. June 16, 2017), report and recommendation adopted, No. CV 165154, 2017 WL 2951604 (E.D. Pa. July 10, 2017).
34

Case l:13-cv-0?^"^-YK-KM Document 113 Filed 04/^o,19 Page 35 of 62

failed to demonstrate his “actual innocence.” See Calderon v. Thompson, 523 U.S. 558, 559
(1998). Accordingly, the Court is precluded from considering these claims on federal habeas
review.
For these reasons, the Court respectfully recommends that the Sentence Claim (ground
sixteen) and the Equal Protection Claim (ground seventeen) be DENIED as procedurally
defaulted, without any basis to excuse Lee’s default.
C. Claims on the Merits
The Commonwealth does not argue that Lee’s remaining claims—ground four
(Impartial Jury Ineffectiveness Claim); ground six (Jury Instruction Ineffectiveness Claim);
ground seven (Testimony Ineffectiveness Claim); ground ten (Appellate Ineffectiveness
Claim); ground twelve {Brady Violation Ineffectiveness Claim; ground thirteen (Perjury
Claim); ground fourteen (Perjury Ineffectiveness Claim); and ground eighteen (Statutory
PCRA Claim)—were not properly exhausted and therefore warrant consideration on their
merits. (Doc. 74).
In grounds four, six, seven, ten, twelve, and fourteen, Lee argues that his Sixth
Amendment right to effective counsel was violated because of certain errors made by trial
counsel. (Doc. 1; Doc. 23). “Under Strickland, courts are precluded from finding that counsel
was ineffective unless they find both that counsel’s performance fell below an objectively
unreasonable standard, and that the defendant was prejudiced by that performance.” Marshall
v. Hendricks, 307 F.3d 36, 85 (3d Cir. 2002). A review of counsel’s performance must be
“highly deferential,” as the petitioner has the burden of overcoming the strong presumption
that his counsel’s conduct fell “within the wide range of reasonable professional assistance”
and that counsel “made all significant decisions in the exercise of reasonable professional
35

Case l:13-cv-0?' 3-YK-KM Document 113 Filed 04/^o,19 Page 36 of 62

judgment.” Strickland, 466 U.S. at 689-90. Even if a petitioner demonstrates that his attorney’s
performance fell below prevailing professional norms, habeas relief will only be available if
the petitioner further demonstrates that this deficient performance prejudiced his defense.
Strickland, 466 U.S. at 691-92. To demonstrate that he was prejudiced by counsel’s ineffective
performance, a petitioner “must show that there is a reasonable probability that, but for the
counsel’s unprofessional errors, the result of the proceeding would have been different.”
Strickland, 466 U.S. at 694. Courts properly deny an ineffective assistance of counsel claim
upon determining that a petitioner fails to make a sufficient showing under either the
performance component or the prejudice component of the Strickland two-part test.
Strickland, 466 U.S. at 697.
Although Pennsylvania state courts evaluate ineffective assistance claims by applying
a test that differs slightly from Strickland, the Third Circuit has made clear that Pennsylvania’s
test is not contrary to Strickland,37 Jacobs v. Horn, 395 F.3d 92, 106 n.9 (3d Cir. 2005) (citing
Werts v. Vaughn, 228 F.3d 178, 204 (3d Cir. 2000)). Accordingly, under the deferential
standard mandated by 28 U.S.C. § 2254(d)(1), the Court may only grant Lee habeas relief
upon finding that the state court decisions involved an unreasonable application of Strickland.
Further, because Lee’s ineffective assistance of counsel claims were adjudicated on the merits
in state court, this Court’s “review is ‘doubly deferential:’ the state court was obligated to

37 Here, the state courts employed the test set forth in Commonwealth v. Reeves, 923 A.2d
1119,1127 (Pa. 2007), to dispose of Lee’s ineffective assistance of counsel claims on collateral
review. This test is also not contrary to the constitutional standard in Strickland. Werts v.
Vaughn, 228 F.3d 178 (3d Cir. 2000).
36

Case l:13-cv-0?'~-3-YK-KM Document 113 Filed 04/^°'19 Page 37 of 62

conduct deferential review of counsel's performance and [this Court] must give deference to
the state court rulings under AEDPA.” Showers v. Beard, 635 F.3d 625, 629 (3d Cir. 2011).
1.

Ground Four (Impartial Jury Ineffectiveness Claim)

In his fourth ground for relief, Lee argues that the state courts should have determined
his trial counsel was ineffective for failing to obtain the removal of an allegedly biased juror,
Mr. Baney. (Doc. 1, at 7, 9; Doc. 23, at 18-23). Lee complains that the following events
impacted Mr. Baney’s ability to remain impartial: (1) that, at the end of the first day of trial,
Mr. Baney witnessed the sheriffs department escorting Lee from the courthouse in shackles;
(2) that Mr. Baney’s father worked as a corrections officer in the prison where Lee was
incarcerated, and that Mr. Baney knew Lee had personally approached his father to complain
about his (Mr. Baney’s) presence on the jury; (3) that Mr. Baney informed the Court of his
concern that Lee could easily discover his name, which was publicly listed in the phone book;
and (4) that Mr. Baney inadvertently heard a story that Lee was allegedly involved in the
disappearance of the then-acting Centre County District Attorney, Ray Gricar. (Doc. 23, at
17-25; Doc. 79, at 19-21; Doc. 80, at 1-4). Consequently, Lee asserts that Mr. Baney was both
actually and implicitly biased against him. (Doc. 23, at 20-23). Lee further argues that
Attorney McGlaughlin had no sound trial strategy to support his failure to remove Mr. Baney,
as counsel cannot waive a defendant’s Sixth Amendment right to an impartial jury. (Doc. 1,
at 7; Doc. 23, at 23).
The Commonwealth contends that the trial court’s decision to deny the Impartial Jury
Ineffectiveness Claim was not based on an unreasonable application of Strickland. (Doc. 74,
at 46-47). Specifically, the Commonwealth notes that Lee’s trial counsel immediately
requested a mistrial upon discovering that Mr. Baney had observed Lee leaving the
37

Case l:13-cv-0?^-YK-KM Document 113 Filed 04/^'19 Page 38 of 62

courthouse, allegedly in restraints. (Doc. 74, at 46). The Commonwealth further argues that
it was ultimately Lee, and not his trial counsel, who decided to keep Mr. Baney on the jury.
(Doc. 74, at 46-47). Nonetheless, Lee asserts that the state courts violated the mandates of
Strickland, as they declined to address whether Attorney McGlaughlin’s conduct fell below an
objective standard or reasonableness, and whether Lee’s criminal case was prejudiced as a
result. (Doc. 23, at 24).
The Sixth Amendment guarantees every criminal defendant “the right to a ... trial [ ]
by an impartial jury.” U.S. Const. Amend. VI. Where a “juror's view would prevent or
substantially impair the performance of his duties as a juror in accordance with his
instructions and his oath,” he should be dismissed for cause. Wainwright v. Witt, 469 U.S. 412,
424 (1985) (quotations omitted); Remmer v. United States, 347 U.S. 227, 230 (1954) (when
possibility ofjuror bias arises, due process requires the court to “determine the circumstances,
the impact therefore upon the juror, and whether or not it was prejudicial. ”); Johnson v. Rozum,
No. CIVA 2005-CV-01242, 2006 WL 3097426, at *7 (E.D. Pa. Oct. 27, 2006) (“When
a juror is challenged for cause on the ground that he cannot be impartial, the trial court must
determine if the juror did “swear that he could set aside any opinion he might hold and decide
the case on the evidence, and [whether] the juror's protestation of impartiality [should be]
believed.”) (citing Patton v. Yount, 467 U.S. 1025, 1036 (1984)). “Thus, when presented with
allegations of juror bias, a trial court must conduct a hearing to determine what transpired,
the impact on the juror, and whether the contact (or cause of the alleged bias) was
prejudicial.” Anderson v. Phelps, 930 F. Supp. 2d 552, 565 (D. Del. 2013) (citing Remmer, 347
U.S. at 230; Smith v. Phillips, 455 U.S. 209, 216 (1982)). Like district courts, “Pennsylvania
trial courts generally have broad discretion in their substitution of jurors.” Smiley v. Pitkins,
38

Case l:13-cv-0?' ^-YK-KM Document 113 Filed 04/^o,l9 Page 39 of 62

No. CV 14-807, 2014 WL 11264717, at *8 (E.D. Pa. Nov. 19, 2014), report and recommendation
adopted, No. CV 14-0807, 2016 WL 1457890 (E.D. Pa. Apr. 12, 2016) (citing Commonwealth
v. Carter, 643 A.2d 61, 70 (Pa. 1994) (“The decision to discharge a juror is within the sound
discretion of the trial court and will not be disturbed absent an abuse of that discretion.”).
This determination constitutes a finding of fact made by the trial court, which is entitled to a
presumption of correctness under the AEDPA. Johnson, 2006 WL 3097426, at *7 (citing
Patton, 467 U.S. at 1036, 1038).
To prevail on his claim that Attorney McGlaughlin was ineffective for failing to obtain
the removal of a biased juror, Lee “must show that [Mr. Baney] was actually biased against
him.” Hughes v. United States, 258 F.3d at 458 (quoting Goeders v. Hundley, 59 F.3d 73, 75 (8th
Cir. 1995) (citing Smith v. Phillips, 455 U.S. at 215). “Actual bias is ‘the existence of a state of
mind that leads to an inference that the person will not act with entire impartiality.’” United
States v. Meehan, 741 F. App'x 864, 871 (3d Cir. 2018) (citing United States v. Mitchell, 690 F.3d
137,141 (3d Cir. 2012)). Here, to seemingly support the contention of actual bias against him,
Lee cites to several points in the trial court record where Mr. Baney voiced concerns about
his ability to remain impartial.38 (Doc. 23, at 19-21). Lee further appears to complain that the

38 Upon review of the record, Mr. Baney made the following comments in response to
his ability to remain fair and impartial: (1) that, upon notifying the Court of Mr. Baney’s
concern that his father worked at the correctional facility holding Lee, Mr. Baney testified “I
don’t think so...No, not at this point.. .Possibly. I mean right now.. .and just thinking about
[Lee’s connection with my father] made me a little nervous, but up until this point I have been
completely fine...[the concern is] going to continue.. .1 don’t know [if I feel at this point that
I can continue with Lee’s case and remain fair and impartial]” (Doc. 79, at 19-22) and; (2)
that, in considering a news story Mr. Baney inadvertently heard involving Lee’s alleged
39

Case l:13-cv-0?' ^-YK-KM Document 113 Filed 04/''~/19 Page 40 of 62

presiding trial court judge deferred his decision to keep Mr. Baney impaneled as a juror until
the end of the trial. (Doc. 23, at 19-20).
Notably, Lee neglects to mention the subsequent exchange in relation to the trial court
judge’s decision on the matter of whether to keep Mr. Baney impaneled:
The Court:

I do have to make a ruling on [Mr. Baney]. Any guidance
from either of you?

Mr. McGlaughlin:

I have discussed it with my client, and he’s perfectly
willing to let [Mr. Baney] be among the 12 to make the
decision.

The Court:

And you?

Prosecutor:

I honestly don’t have a problem He was just all over the
freaking place. I don’t know, you know.

Mr. McGlaughlin:

Why don’t you ask when concluding your instructions
saying is there anything now we need to talk about
privately, in chambers, on the record, that any of you feel
... would prevent you from going back ... and being a fair
and impartial juror in deciding this case solely on the
evidence and on the law as I have given out? We need to
know that now.

Prosecution:

In accordance with the instruction that [the Court has]
given you each and every time, you know, just reference
that.

Mr. McGlaughlin:

My client did indicate, for the record, that he has no
objection to [Mr. Baney] remaining as a.. .juror.

connection with an Attorney General’s disappearance, Mr. Baney stated “I hate to say it, I
think it would. I really don’t, you know, I have been nauseous since I heard [the news story]
and the fact that I had to tell you and not only that but I noticed myself being distracted during
proceedings so far today by the first thing we discussed.. .1 mean after a while I was back on
the topic but I think its going to continue to be an issue...” (Doc. 80, at 2-3). Notably, the
State Courts’ decisions did not directly address whether or not Mr. Baney’s comments
displayed an actual or implicit bias.
40

Case l:13-cv-0r

3-YK-KM Document 113 Filed 04/^T9 Page 41 of 62

The Court:

Do we need to colloquy [Mr. Baney] in chambers before
I release the jury? He may not feel particularly
comfortable raising his hand saying, yes, its me. I don’t
feel comfortable...

Prosecutor:

The problem is...[you] put [the jurors] out of here and
then bring [Mr. Baney] back. You know at this point you
can’t, like, stop the jury from starting.

Mr. McGlaughlin:

I think if you give the instruction in open court that I have
said, I think you have covered it. I indicated my client’s
willingness to allow [Mr. Baney] to continue to serve or
irrespective of the comments he made and you covered it
with the instruction.

(Doc. 84, at 43-45).
The presiding trial court judge then gave the following instruction, to which no jurorincluding Mr. Baney—raised their hand in the affirmative.
The Court:

...I need to know if there’s anyone in the jury who, for
whatever reason, does not wish to proceed at this point to
go back into the jury room and render a decision. Is there
anyone here for any reason, whether it’s a physical reason
or a personal reason, who believes that they cannot abide
by my instructions and apply the evidence fairly to my
instructions and render a verdict? If there’s anyone here
at this point in time who feels uncomfortable that they
cannot do that, please raise your hand and we will
address it at side bar.

(Doc. 84, at 46-47).
Further, with respect to the Impartial Jury Ineffectiveness Claim at issue, the PCRA
Court opined as follows:
During the trial, Juror Baney expressed to the Court that his father worked at
the Centre County Correctional Facility and indicated this made him nervous.
Trial counsel testified that he could not have struck Juror Baney for cause
during jury selection because he did not bring up the fact that his father worked
41

Case l:13-cv-02^',-YK-KM Document 113 Filed 04/^°'19 Page 42 of 62

at the correctional facility until trial. There were a few discussions between the
attorneys and trial judge regarding Juror Baney on the record. Juror Baney
brought up the fact that his father workfed] at the correctional facility. He was
asked questions to determine if he saw Petitioner leaving the courthouse
handcuffed because Petitioner thought he did and expressed concern that it
could prejudice the juror. However, Juror Baney indicated that he saw Mr. Lee
leaving the courthouse but described him as free. Juror Baney also advised the
trial judge that he inadvertently heard of a news story raising whether petitioner
had any connection to the disappearance of Ray Gricar, former District
Attorney. The juror was questioned regarding his ability to keep an open mind
and be fair and impartial and advised that he must advise the trial judge if he
was unable to be fair and impartial. The trial judge reserved the decision
concerning Juror Baney remaining on the jury panel until the end of the trial.
Ultimately, trial counsel for Petitioner advised the Assistant Attorney General
and trial judge on the record that Petitioner decided to keep the Juror Baney on
the jury. This Court dismissed this [Impartial Jury Ineffectiveness Claim]
because the record reflects that trial counsel gave meaningful attention and
consideration to this issue and Petitioner was responsible for the decision to
keep Juror Baney on the jury.
(Doc. 98, at 25-26).
The Superior Court affirmed this rationale on Lee’s First PCRA Appeal, finding that
the PCRA Court had correctly determined that trial counsel was not ineffective.39 (Doc. 101,
at 39).

39 The Superior Court further noted that Attorney McGlaughlin moved for a mistrial
upon discovering the potential for bias arising from Mr. Baney’s observation of Lee leaving
the courthouse. (Doc. 101, at 39). Upon bringing this matter to the trial court’s attention,
Attorney McGlaughlin stated on the record, “I think at this point in time I’m obligated to
move for a mistrial on that basis. Two of the jurors ran straight into him being escorted by
deputies in handcuffs and otherwise in custody.” (Doc. 79, at 11-12). In response, Mr.
McLaughlin and the presiding judge examined the two jurors that witnessed Lee leaving the
courthouse after trial—one of which included Mr. Baney—regarding their ability to remain
fair and impartial. When asked whether the first juror witnessed anything “that would make
[him] less than fair and impartial,” he stated that there was nothing that would impact his
ability to remain on the jury. (Doc. 79, at 16). When presented with a similar line of
questioning, Mr. Baney also stated on the record that he did not witness anything that could
42

Case l:13-cv-02"“',-YK-KM Document 113 Filed 04/^°'19 Page 43 of 62

Here, although Lee demonstrates that Mr. Baney may have previously wavered
regarding his ability to remain impartial, Lee does not establish that Mr. Baney ultimately
was “substantially impair[ed in] the performance of his duties as a juror.” See Wainwright v.
Witt, 469 U.S. 412, 424 (1985); United States v. Bertoli, 854 F. Supp. 975, 1098-99
(D.N. J.), affd in part, vacated in part, 40 F.3d 1384 (3d Cir. 1994) (“So long as it is determined
that the juror can render a verdict based on the evidence presented in court and is in fact fair
and impartial, a defendant is not prejudiced by the inclusion of that juror.”) (citing Dobbertv.
Florida, 432 U.S. 282, 302 (1977)); see also United States v. Meehan, 741 F. App'x 864, 871 (3d
Cir. 2018) (finding that while juror vacillated regarding his impartiality, counsel was not
ineffective for failing to secure his removal when “the District Court conducted an extensive
voir dire, reminded [the juror] of the importance of putting aside any lingering feelings he had
from that experience, and received adequate assurances that he would consider the evidence
and follow the Court’s instructions.”); Burton v. Glunt, No. CIV.A. 07-1359, 2013 WL
6500621, at *17 (E.D. Pa. Dec. 11, 2013) (failing to find that petitioner presented clear and
convincing evidence to rebut the state courts’ conclusions that counsel was not ineffective for
failing to explore jurors alleged bias when the juror did not affirmatively raise her hand in
response to the court’s question of whether any jurors would be impartial). Further, while Lee

cause him to be less than fair and impartial. (Doc. 79, at 17-18). While Mr. Baney indicated
that the encounter with Lee “was kind of weird,” he affirmatively stated that there was
nothing he witnessed that would prevent him from keeping an open mind about the trial.
(Doc. 79, at 18). Thus, as Lee has failed to demonstrate that this finding was erroneous by
clear and convincing evidence, the Superior Court’s determination of this factual issue is
presumed to be correct. See 28 U.S.C. § 2254(d)(2); 28 U.S.C. § 2254(e)(1).
43

Case l:13-cv-0?" 3-YK-KM Document 113 Filed 04/po'19 Page 44 of 62

complains that the state courts failed to address whether Attorney McGlaughlin’s trial
strategy was reasonable under Strickland, the record belies this notion. Specifically, the PCRA
Court credited the “meaningful attention and consideration” trial counsel gave to Mr. Baney’s
continued presence on the jury. (Doc. 98, at 25-26). Attorney McGlaughlin’s testimony from
the PCRA Hearing additionally reveals that Mr. Baney’s “squirrely” demeanor made it
difficult to ascertain whether Mr. Baney’s comments harbored a clear bias against Lee. (Doc.
88).
Moreover, of some apparent significance to the state court’s disposition of his
Impartial Jury Ineffectiveness Claim, the Superior Court expressly recognized that Lee
ultimately wanted Mr. Baney to remain on the jury, despite Attorney McGlaughlin
communicating that he could not get a clear handle on Mr. Baney’s comments. Thus, it is
evident that, at the time, Lee did not object to the propriety of any trial strategy to that effect.
See Mitchell v. Herbert, No. 01-CV-681, 2008 WL 342975, at *20 (W.D.N.Y. Feb. 6, 2008)
(finding that counsel was not ineffective for confirming that petitioner wanted to keep a
challenged juror, as the petitioner “expressly confirmed that he agreed with the decision to
have [the challenged juror] continue to sit on the jury... participated in the decision to keep
Juror Five and specifically assented to trial counsel's strategy in this regard.”). Thus, although
a close determination, based on the particular facts of this case, the Court does not find that
Mr. Baney was actually prejudiced against Lee, as required to grant relief on the Impartial
Jury Ineffectiveness Claim. Nor does the Court find that the state court’s rejection of this
claim constituted an unreasonable application of Strickland. Gov't of Virgin Islands v.
Weatherwax, 77 F.3d 1425,1435 (3d Cir. 1996) (“To avoid the shoals of ineffective assistance,

44

Case l:13-cv-02"“',-YK-KM Document 113 Filed 04/^o,19 Page 45 of 62

an attorney’s judgment need not necessarily be right, so long as it is reasonable.”) (citing
Strickland, 466 U.S. at 687-91).
Accordingly, the Court recommends that the Impartial Jury Ineffectiveness Claim
(ground four) be DISMISSED for lack of merit.
2.

Ground Six (Jury Instruction Ineffectiveness Claim)

Next, Lee argues that his trial counsel was ineffective in his handling of the jury
instruction given on entrapment. (Doc. 1, at 10, 12; Doc. 23, at 35-39). Specifically, Lee
challenges the jury instruction, and the corresponding lack of objection by Attorney
McGlaughlin, insofar as: (1) the trial court judge merely re-read the initial entrapment
instruction, instead of providing any clarifying examples, in response to the jury’s apparent
confusion regarding the instruction; and (2) the trial court judge requested that any confused
jurors identify themselves, effectively “singl[ing] [them] out” during deliberations. (Doc. 23,
at 36-37). The Commonwealth argues that the state court’s decision to deny the Jury
Instruction Ineffectiveness Claim on collateral review did not constitute an objectively
unreasonable application of Strickland. (Doc. 74, at 47-48). The Commonwealth further
emphasizes that Lee does not argue the instruction, in and of itself, contained an inaccurate
statement of the law. (Doc. 74, at 47-48).
On PCRA appeal, the Superior Court noted that the jury requested clarification
regarding the entrapment instruction on three separate occasions. (Doc. 101, at 41). (Doc.
101, at 41-42). However, the Superior Court affirmed the PCRA Court’s denial of the Jury
Instruction Ineffectiveness claim, finding that it was without merit. (Doc. 101, at 42).
Specifically, the PCRA Court determined that the presiding judge had acted in accordance
with governing law when he reiterated the standard jury instruction, which did not contain
45

Case l:13-cv-0?

'’-YK-KM Document 113 Filed 04/r"'19 Page 46 of 62

an incorrect statement of law regarding entrapment, and directly inquired as to whether the
jurors required further clarification. (Doc. 96, at 56-57; Doc. 101, at 42). Accordingly, the
Superior Court agreed with the PCRA Court that, as the underlying jury instruction challenge
lacked merit, Lee’s trial counsel had not provided ineffective assistance by failing to object on
these grounds. (Doc. 101, at 42).
“Jury instructions are matters of state law and are generally not cognizable under
federal habeas review.” Gaston v. MacFarland, No. CIV.A. 04-1168 (KSH), 2005 WL 1828660,
at *9 (D.N.J. July 29, 2005). However, the provision of an erroneous jury instruction may
warrant habeas relief if it rises to the level of a denial of due process. Henderson v. Kibbe, 431
U.S. 145, 154 (1997). Thus, “[t]he question [on habeas review] is whether the ailing
instruction by itself so infected the entire trial that the resulting conviction violate[d] due
process.” Henderson, 431 U.S. at 154 (internal citations omitted). Here, while Lee contends
that the presiding trial court judge failed to provide an example of entrapment to “a clearly
confused jury,” he does not allege—as the Superior Court pointed out— that the jury received
an erroneous instruction as a matter of law. (Doc. 23, at 37). Thus, Lee has failed to
demonstrate that the jury instruction “was erroneous,” let alone deprived him of his right to
due process. See Henderson, 431 U.S. at 154. Accordingly, because “counsel cannot be
deemed ineffective for failing to raise a meritless claim,” Lee cannot show that his trial
counsel’s performance was deficient insofar as he failed to object to the presiding judge’s jury
instruction. See Werts v. Vaughn, 228 F.3d 178, 203 (3d Cir. 2000).
In applying the “doubly deferential” standard of review required, the Court does not
find that the state court’s decision was clearly contrary to, or an unreasonable application of,
clearly established federal law. See 28 U.S.C. § 2254(d)(1); Showers v. Beard, 635 F.3d 625, 629
46

Case l:13-cv-0?" "YYK-KM Document 113 Filed 04/^'19 Page 47 of 62

(3d Cir. 2011). For these reasons, the Court respectfully recommends that Lee’s Jury
Instruction Ineffectiveness Claim (ground six) be DISMISSED as without merit.
3.

Ground Seven (Testimony Ineffectiveness Claim)

In his seventh ground for relief, Lee argues that his trial counsel was ineffective for
depriving him of his constitutional right to testify. (Doc. 1, at 12, 14; Doc. 23, at 40-49). Lee
alleges that his trial counsel misinformed him that he could not testify because counsel “could
not suborn [Lee’s] perjury. ” (Doc. 1, at 12). As a result, Lee avers that he was unable to fully
present his defense of entrapment, and that trial counsel’s advice “was so unreasonable as to
vitiate his knowing and intelligent decision no[t] to testify on his own behalf.” (Doc. 23, at
41-42, 45). Lee further claims that the state court’s finding that he had waived his
constitutional right to testify was contrary to clearly established federal law. (Doc. 23, at 40).
A defendant's right to testify arises from several constitutional provisions, including
the guarantee in the Fourteenth Amendment not to be deprived of liberty without due process
of law. Rock v. Arkansas, 483 U.S. 44, 51 (1987). “While courts have recognized counsel’s duty
to advise the defendant of his right to testify or not to testify and the strategic implications of
each choice, the decision whether or not to testify belongs ultimately to the defendant.” United
States v. Lively, 817 F. Supp. 453, 461 (D. Del.), affd, 14 F.3d 50 (3d Cir. 1993); see also Jones
v. Bames, 463 U.S. 745, 751 (1983) (“[T]he accused has the ultimate authority to make certain
fundamental decisions regarding the case, [including] as to whether to ... testify in his or her
own behalf.”). Thus, to be valid, a waiver of the right to testify must be knowing and
intelligent. United States v. Pennycooke, 65 F.3d 9, 11 (3d Cir. 1995) (citing Schneckloth v.
Bustamonte, 412 U.S. 218, 241 (1973)). When a petitioner alleges that counsel was ineffective

47

Case l:13-cv-02" "-YK-KM Document 113 Filed 04/or'l\Q Page 48 of 62

for depriving him of his constitutional right to testify, the standard set forth in Strickland v.
Washington applies. Palmer v. Hendricks, 592 F.3d 386, 394 (3d Cir. 2010).
Here, Lee fails to demonstrate that his trial counsel’s performance was constitutionally
deficient, as required under the first prong of Strickland. Lee alleges that his trial counsel had
no strategic reason for advising him not to testify. (Doc. 23, at 43). On PCRA Review, the
Pennsylvania Superior Court rejected this notion, and adopted the PCRA court’s rationale
on the matter. (Doc. 101, at 39-40). Specifically, relying upon the Pennsylvania Supreme
Court’s test for ineffectiveness of counsel,40 the PCRA Court observed:
Trial counsel testified that if he was to have put Petitioner on the stand he
would have either admitted to the deliveries to Kenyon Ebeling for which he
was ultimately acquitted or, testify that he never delivered heroin which would
have created an ethical dilemma or attorney-client privilege issue. Trial counsel
further testified that he would have said something to Petitioner such as, he
could not put him on the stand unless he denied making deliveries that he had
admitted to and he could not suborn peijury. Trial counsel would have never
told him that he could not testify based on prior bad acts and if Petitioner
thought so, he misunderstood. Trial counsel further testified that he has never
told any client that he does not have a legal right to testify. Based on the
testimony of trial counsel concerning the decisions made regarding Petitioner’s
waiver of his right to testify ... this Court believes Petitioner made this decision
with the advice of counsel but was never told that he had no right to testify or
could not.
(Doc. 98, at 30-31).
The Superior Court, also citing to the decision in Commonwealth v. Nieves, 746 A. 2d
1102, 1104 (Pa. 2000) for the proposition that a defendant has the right whether or not to

40 Commonwealth v. Reeves, 923 A.2d 1119,1127 (Pa. 2007). As discussed supra, this test
is not contrary to the constitutional standard in Strickland. Werts v. Vaughn, 228 F.3d 178 (3d
Cir. 2000).
48

Case l:13-cv-02" ^-YK-KM Document 113 Filed 04/0°'19 Page 49 of 62

testify on his own behalf after a full consultation with counsel, determined that the PCRA
properly denied Lee’s ineffectiveness claim.41 (Doc. 101, at 40).
As the state court has reviewed and rejected this claim on the merits, this Court’s
review of the Testimony Ineffectiveness Claim is doubly deferential. See Showers v. Beard, 635
F.3d 625, 629 (3d Cir. 2011) (“[T]he state court was obligated to conduct deferential review
of counsel's performance and [this Court] must give deference to the state court rulings under
AEDPA.”). Even so, there is nothing to suggest that Lee’s trial counsel prevented him from
testifying or, despite advising against it, failed to apprise Lee of his right to do so.42 Rather,
contrary to Lee’s allegations, Attorney McGlaughlin advised Lee that he should not testify
based on sound strategic considerations. See Frederick v. Kyler, 100 F. App’x 872, 874 (3d Cir.
2004) (“If [Petitioner's] attorney merely advised him not to testify, that tactical decision

41 Although Lee does not allege that the state court’s conclusion was based on an
unreasonable determination of the facts, see 28 U.S.C. § 2254(d)(2), the factual determination
is presumed to be correct here. 28 U.S.C. § 2254(e)(1) (“[A] determination of a factual issue
made by a State court shall be presumed to be correct. The applicant shall have the burden of
rebutting the presumption of correctness by clear and convincing evidence.”).
42 A review of Lee’s trial court transcript further reveals that his defense counsel stated
the following on the record:
I have talked to Mr. Lee. I am satisfied that he and I have discussed whether
he will testify numerous times. We have discussed that issue -1 can’t even tell
you have many times. It’s been discussed a number of times. I have advised
Mr. Lee that regardless of what I think, regardless of what my advice is to him,
that he has the absolute right to testify, and if he is in agreement that he will
not take the witness stand. I don’t know that you need to conduct the colloquy.
I am just saying that I’m not putting it on the stand. I am establishing the record
that he and I have discussed that. I don’t think there’s any need for you to do a
colloquy of him.
(Doc. 83, at 77-78).
49

Case l:13-cv-0?'

'-YK-KM Document 113 Filed 04/n°'i9 Page 50 of 62

certainly would not have fallen below Strickland’s standard of objective reasonableness.”);
Campbell v. Vaughn, 209 F.3d 280, 291 (3d Cir. 2000) (“The factual record to which we must
defer demonstrates that this advice went no further than counseling, and that trial counsel did
not suggest to Campbell that he could not testify, even if he chose to do so.”); United States
v. Teague, 953 F.2d 1525, 1534-35 (11th Cir. 1992) (finding counsel was not ineffective when
he advised the petitioner of his right to testify, but advised him not to exercise that right as it
would be unwise and unnecessary).
Speaking directly on the matter, trial counsel testified during the PCRA Hearing that
he advised against Lee taking the stand because, if Lee testified truthfully, he may have been
convicted on other charges and received a greater sentence. (Doc. 86, at 41-42). Alternatively,
if Lee did not testify truthfully on the stand, Attorney McGlaughlin noted Lee would be
committing perjury. “Whatever the scope of a constitutional right to testify, it is elementary
that such a right does not extend to testifying falsely.” Nix v. Whiteside, 475 U.S. 157, 173
(1986). Thus, Lee has not shown that his trial counsel forbade him from testifying, or
otherwise provided such unreasonable advice that would vitiate Lee’s waiver of his right to
testify. Erkert v. Giroux, No. CV 15-5726, 2017 WL 118243, at *5 (E.D. Pa. Jan. 12,
2017), certificate ofappealability denied sub nom. Erkert v. Superintendent Albion SCI, No. CV 171335, 2017 WL 3611986 (3d Cir. May 9, 2017) (“Because trial counsel had a reasonable basis
to advise Petitioner not to testify, advice that Petitioner acknowledged at the time that he
understood, Petitioner’s ineffectiveness of counsel argument fails.”). Accordingly, as Lee has

50

Case l:13-cv-0?' "-YK-KM Document 113 Filed 04/^'19 Page 51 of 62

failed to meet the first prong of Strickland,43 the Court finds that the state court’s conclusion
was not contrary to, and did not involve an unreasonable application of, clearly established
Federal Law.
For these reasons, the Court recommends that the Testimony Ineffectiveness Claim
(ground seven) be DISMISSED as without merit.
4.

Ground Twelve (Brady Violation Ineffectiveness Claim)

In his twelfth ground for relief, Lee argues that Attorney McGlaughlin was ineffective
for failing to raise an alleged violation of Brady v. Maryland on direct appeal. (Doc. 1, at 8;
Doc. 23, at 27-35). Lee bases his ineffectiveness claim on the Commonwealth’s purported
failure to produce a 2002 debriefing report (the “Debriefing Report”) in which Ebeling
implicated Lee in illegal drug trafficking. (Doc. 23, at 27-28). In response, the Commonwealth
argues that Lee’s related ineffectiveness claim lacks merit and contends that the state court’s
finding is not objectively unreasonable under Strickland. (Doc. 74, at 52). The Commonwealth
further emphasizes that the alleged Debriefing Report—and the grand jury transcripts upon
which Lee relies to support its existence—was neither offered nor admitted into evidence in
the present action. (Doc. 74, at 52).

43 As Lee fails to satisfy the first prong of the Strickland standard, the Court declines to
consider whether he satisfies the second prejudice prong. See Strickland, 466 U.S. at 697
(“[Tjhere is no reason for a court deciding an ineffective assistance claim to approach the
inquiry in the same order or even to address both components of the inquiry if the defendant
makes an insufficient showing on one.”).
51

Case l:13-cv-02" "-YK-KM Document 113 Filed 04/^"'19 Page 52 of 62

In Brady v. Maryland, the Supreme Court held that a defendant’s due process rights are
violated when the prosecution withholds favorable, material evidence44 from the defense. 373
U.S. 83, 87 (1963); Simmons v. Beard, 590 F.3d 223, 233 (3d Cir. 2009) (Holding that a Brady
violation occurs when “(1) evidence was suppressed; (2) the evidence was favorable to the
defense; and (3) the evidence was material to guilt or punishment.”) (quoting United States v.
Risha, 445 F.3d 298, 303 (3d Cir. 2006)). Evidence is deemed “material” if there is a
reasonable probability that, but for the prosecution's failure to disclose the evidence, “the
result of the proceeding would have been different.” Kyles v. Whitley, 514 U.S. 419, 433-34
(1995) (quoting United States v. Bagley, 473 U.S. 667, 682 (1985)). Further, a defendant can
demonstrate a “reasonable probability” of a different result if the government's suppression of
evidence “undermines confidence in the outcome of the trial.” Kyles, 514 U.S. at 433-,
34 (quoting Bagley, 473 U.S. at 678). Nonetheless, the mere possibility of a more favorable
result for the defendant is insufficient to establish materiality under Brady. See Strickler v.
Greene, 527 U.S. 263, 291 (1999).
As discussed infra, Lee raised a related ineffective assistance of counsel claim in his
First Amended PCRA Petition, alleging that Attorney McGlaughlin was ineffective for failing
to pursue a Brady claim on direct appeal. (Doc. 94). The Superior Court affirmed the PCRA
Court’s rationale for dismissing this claim (Doc. 101, at 40-41), which had determined:
[Lee] seems to focus on a 2002 debriefing or report which he contends he never
received through discovery. There was a sidebar at the first day of the trial
regarding a 2002 debriefing or report which the Assistant Attorney General

44 Both impeachment evidence and exculpatory evidence trigger the government's
disclosure duty. See Giglio v. United States, 405 U.S. 150, 154 (1972).
52

Case l:13-cv-0?

"-YK-KM Document 113 Filed 04/''~,19 Page 53 of 62

advised did not exist. He stated when he referenced information from 2002, he
was referring to a “collection” of information law enforcement received that
Petitioner was moving drugs in the region as early as 2002. He further advised
he would check over the lunch break and if any additional information existed
it would be copied and provided after the break. Agent Scott Merrill testified
that there was no 2002 debriefing or report because he became involved with
the case in 2004 when Kenyon Ebeling reported a theft to the State college
police. Agent Merrill further testified that some information was presented to
the grand jury concerning events as early as 2002 but none of this information
was presented to him until 2004 and no report would have been prepared prior
to 2004. Agent Merrill was not aware of any exculpatory evidence prior to the
initiation of the investigation in 2004. This Court is convinced that no report
dating back to 2002 existed and has no reason to believe that trial counsel was
denied any discoverable materials; therefore this Court dismissed [the Brady
Violation Ineffectiveness Claim.]
(Doc. 98, at 29-30).
As articulated supra, a district court must defer to the state court’s legal determination
that counsel was not ineffective and may only overturn such a finding if it was contrary to, or
an unreasonable application of, clearly established federal law. 28 U.S.C. § 2254(d). Here, the
state court’s factual finding that no Debriefing Report existed is presumed to be correct unless
Lee can rebut this presumption by clear and convincing evidence. See2S U.S.C. § 2254(e)(1);
28 U.S.C. § 2254(d)(2). However, upon review of the record before the Court, Lee has not
offered any concrete evidence to prove the existence of the Debriefing Report exists, or that
the Commonwealth withheld such evidence despite Lee’s requests for disclosure. See United
States v. Freeman, 763 F.3d 322, 348 (3d Cir. 2014) (“The mere possibility that [Brady material]
may exist, without more, is insufficient to establish the existence of a Brady violation. ”) (citing
United States v. Ramos, 27 F.3d 65, 71 (3d Cir. 1994) (“We think it unwise to infer
the existence of Brady material based upon speculation alone.”)). Accordingly, the state
court’s finding that Attorney McGlaughlin was not ineffective for declining to pursue the
underlying Brady Violation Claim on direct appeal was not contrary to, or an unreasonable
53

Case l:13-cv-02" "-YK-KM Document 113 Filed 04/^”'19 Page 54 of 62

application of, Strickland, as counsel cannot be faulted for failing to raise a meritless claim.
See Gibson v. Beard, No. CV 10-445, 2015 WL 10381753, at *39 (E.D. Pa. July 28, 2015), report
and recommendation adopted, 165 F. Supp. 3d 286 (E.D. Pa. 2016), affdsub nom. Gibson v. Sec'y
Pennsylvania Dep't ofCon., 718 F. App'x 126 (3d Cir. 2017) (finding that since the alleged Brady
material did not exist, the petitioner’s Brady claim lacked merit and his direct appellate
counsel was not ineffective for failing to pursue such a claim). Nor was the state court’s
conclusion based upon an unreasonable determination of the facts. See 28 U.S.C. § 2254(d).
As such, the Court respectfully recommends that the Brady Violation Ineffectiveness
Claim (ground twelve) be DISMISSED as it is without merit.
5.

Ground Thirteen (Perjury Claim) and Ground Fourteen (Perjury
Ineffectiveness Claim)45

As another basis for federal habeas relief, Lee argues that the Commonwealth relied
on the perjured testimony of witnesses to obtain a conviction against him. (Doc. 1, at 11; Doc.

45 The Commonwealth apparently interprets Lee’s perjury claims as raising challenges
to the prosecution’s use of false testimony during grand jury proceedings, and Attorney
McGlaughlin’s resulting ineffectiveness for failing to raise this issue on direct appeal. (Doc.
74, at 53-57). However, Lee’s petition instead appears to focus on Ebeling’s alleged perjury at
trial, and Attorney McGlaughin’s decision not to raise this issue on direct appeal (despite
initially presenting it in Lee’s post-sentence motion). (Doc. 1, at 11; Doc. 23, at 49-59).
Nonetheless, to the extent that Lee intends to challenge the veracity of Ebeling’s grand jury
testimony, and appellate counsel’s consequent ineffectiveness for failing to pursue the issue,
the Court agrees with the Commonwealth that such claims are subject to dismissal. (Doc. 74,
at 55-57). Specifically, “[ejven if [Ebeling’s] grand jury testimony is presumed to be perjurious,
it would not warrant habeas relief since the right to a grand jury has not been applied to the
States via the Fourteenth Amendment.” See Downer v. Wanen, No. CIV.A. 11-6414 RMB,
2013 WL 1986395, at *19 n. 32 (D.N.J. May 13, 2013) (citing Apprendi v. New Jersey, 530 U.S.
466, 499 (2000)). Thus, to the extent that Lee contests Ebeling’s grand jury testimony, such a
claim is not cognizable on habeas review because it does not involve the application of federal
54

Case l:13-cv-0?

^-YK-KM
Document 113 Filed 04/^ '19 Page 55 of 62
i

23, at 49-59). Lee additionally argues that Attorney McGlaughlin was ineffective for waiving
this issue on direct appeal.46 (Doc. 23, at 56-57). As Lee’s argument effectively concedes that
he failed to properly exhaust the Perjury Claim, it is evident that it is technically exhausted
but deemed procedurally defaulted. See Coleman v. Thompson, 501 U.S. 722, 732 (1991).
However, the Court will address whether Attorney McGlaughlin rendered constitutionally
deficient assistance under Strickland here—both in disposing of Lee’s Perjury Ineffectiveness
Claim and determining whether there is any basis to excuse the procedural default of his
underlying Perjury Claim. See United States v. Mannino, 212 F.3d 835, 840 (3d Cir. 2000);
Edwards v. Carpenter, 529 U.S. 446, 448 & 451-453 (2000).47

law. See 28 U.S.C.§ 2254(d); Downer, 2013 WL 1986395, at *19 n. 32 (citing Stumpf v.
Alaska, 78 F. App’x 19, 20 (9th Cir. 2003)); see also U.S. v. Williams, 504 U.S. 36, 54 (1992)
(“‘[T]he mere fact that evidence itself is unreliable is not sufficient to require a dismissal of
the indictment,’ and that ‘a challenge to the reliability or competence of the evidence
presented to the grand jury’ will not be heard.”) (quoting Bank ofNova Scotia v. U.S., 487 U.S.
250, 261 (1988)). Further, the Court is consequently of the opinion that a related
ineffectiveness claim, for failing to raise such a non-cognizable claim on direct review, would
lack merit. See Werts v. Vaughn, 228 F.3d 178, 203 (3d Cir. 2000).
46 Notably, Attorney McGlaughlin’s post-trial motion included the following claim,
which was omitted from Lee’s subsequent direct appeal: “The court erred in failing to
overturn [Lee’s] conviction based upon the perjured testimony of Kenyon Ebeling, the
Commonwealth’s star witness in the present case.” (Doc. 88, at 83). The presiding trial court
judge denied this contention, reasoning that the question of a witness’s credibility is solely for
a jury to decide. (Doc. 88, at 83). The trial court judge further determined that Lee’s efforts to
discredit Ebeling, through Attorney McGlaughlin’s cross-examination and argument, “were
so effective that the jury acquitted him of all charges involving dealings with Ms. Ebeling.”
(Doc. 88, at 83). However, as Attorney McGlaughlin waived this issue on direct appeal, it
was not properly exhausted in state courts.
47 Although not raised by Lee in his Traverse, as the Commonwealth’s answer did not
address the issue of procedural default with respect to this claim, ineffective assistance of
counsel on direct appeal can establish cause for procedural default. See Coleman v. Thompson,
55

Case l:13-cv-02'

-YK-KM Document 113 Filed 04/''"'19 Page 56 of 62

“The Supreme Court has long held that the state's knowing use of perjured testimony
to obtain a conviction violates the Fourteenth Amendment.” Lambert v. Blackwell, 387 F.3d
210, 242 (3d Cir. 2004) (citing Giglio v. United States, 405 U.S. 150, 153 (1972)). In order to
sustain a claim of constitutional error resulting from prosecutorial misconduct in the use of
false testimony, the petitioner must establish that the witness actually perjured him or herself,
and that the “prosecutor knowingly used perjured testimony, or failed to correct what he
subsequently learned was false testimony.” Prosdocimo v. Sec'y, Pa. Dep't o/Corr., 458 F. App'x
141, 147 n.5 (3d Cir. 2012) (quoting United States v. McNair, 605 F.3d 1152, 1208 (11th Cir.
2010)). “[M]ere inconsistencies in testimony fall short of establishing perjury and most
certainly do not establish that the [prosecutor] knowingly utilized perjured testimony. ” Jones
v. Kyler, No. CIV.A. 02-09510, 2005 WL 5121659, at *8 (E.D. Pa. Aug. 3, 2005) report and

501 U.S. 722, 753-54 (1991); see also Martinez v. Ryan, 566 U.S. 1,11 (2012) (“[A]n attorney’s
errors during an appeal on direct review may provide cause to excuse a procedural default;
for if the attorney appointed by the State to pursue the direct appeal is ineffective, the prisoner
has been denied fair process and the opportunity to comply with the State’s procedures and
obtain an adjudication on the merits of his claims.”). However, as mentioned supra, to excuse
the procedural default of an underlying claim—or the Perjury Claim in this instance—a claim
of ineffective assistance of direct appeal counsel must have been exhausted in and of itself and
may not be procedurally defaulted. See Edwards, 529 U.S. at 448 & 451-453 (holding that “a
federal habeas court is barred from considering an ineffective-assistance-of-counsel claim as
‘cause’ for the procedural default of another claim when the ineffective-assistance claim has
itself been procedurally defaulted” and when the petitioner cannot “satisfy the cause-andprejudice standard with respect to that claim”). Here, the record reveals that Lee raised the
Perjury Ineffectiveness Claim in his First Amended PCRA Appeal, which the Pennsylvania
Superior Court denied on the merits. (Doc. 101, at 44-46). Thus, as Lee’s ineffectiveness claim
has been properly exhausted in state court, the Court considers whether Attorney
McGlaughlin’s conduct rises to a constitutional deprivation under Strickland here with respect
to both the Perjury Claim and the Perjury Ineffectiveness Claim. See Mannino, 212 F.3d at
840; Edwards, 529 U.S. at 448 & 451-453.
56

Case l:13-cv-02'

-YK-KM Document 113 Filed 04/0''"'9 Page 57 of 62

recommendation adopted, No. CIV.A. 02-9510, 2007 WL 187689 (E.D. Pa. Jan. 22, 2007)
(quoting United States v. Thompson, 117 F.3d 1033, 1035 (7th Cir.1997)) (citation and internal
quotation marks omitted); United States v. Mershon, No. 10-1861, 2010 WL 4104665, at *8
(E.D. Pa. Oct. 19,2010) (“The mere presence of inconsistent statements ... does not establish
that the prosecutor willfully presented perjured testimony.”). Indeed, “[t]here are many
reasons testimony may be inconsistent; perjury is only one possible reason.” Lambert v.
Blackwell, 387 F.3d 210, 249 (3d Cir. 2004).
Lee’s memorandum in support of his petition cites to several statements made by
Ebeling,48 the Commonwealth’s “star witness,” to support his allegation that the
Commonwealth elicited, or otherwise failed to correct, false testimony. (Doc. 23, at 50-55).
However, Lee’s reliance on the allegedly inconsistent nature of Ebeling’s statements at trial
does not establish that that the testimony she offered was actually perjured. See Jones, 2005
WL 5121659, at *8; see also Lambert, 387 F.3d at 245 (finding petitioner’s “vehement

48 Liberally construed his allegations, Lee submits the following occurred at trial: (1)
that Ebeling falsely testified regarding the sentence she received, and was serving, and her
desire to have the terms of her sentence changed; (2) that Ebeling falsely testified regarding
the “imaginary theft of $180” by Lee; (3) that Ebeling falsely testified regarding her
motivations for originally becoming a confidential informant against Lee; (4) that Ebeling
falsely testified regarding her first organized drug buy from Lee; (5). that Ebeling falsely
testified regarding the exact date of her last organized drug buy from Lee; (6) that Ebeling
falsely testified regarding her knowledge of other drug deals facilitated by Lee, thereby
“corrupt[ing]” Lee’s sole defense of entrapment; (7) that Ebeling denied the occurrence of
certain events that were recorded in a debriefing report, which was notably based on
information she had provided to the police; and (8) that Ebeling falsely testified regarding her
effort to trade guns for drugs with Lee. (Doc. 23, at 50-54). In challenging the veracity of these
statements, Lee points to purported discrepancies in Ebeling’s grand jury testimony and trial
testimony. (Doc. 23, at 50-54).
57

Case l:13-cv-02'

:YK-KM Document 113 Filed 04/t'~'',9 Page 58 of 62

disagreement with the prosecutor's theory - and with the judge's finding - does not amount
to a good faith basis to allege perjury.”). Further, the PCRA Court, and the Superior Court in
affirming its reasoning, thoroughly considered whether appellate counsel was ineffective in
his handling of the matter on direct appeal:
[The Perjury Claim] was not raised on appeal although counsel testified he
certainly would have raised it if he could “establish without equivocation that
she lied or that she perjured herself at the grand jury. ” Counsel felt there was
no merit to the issue and felt that there were other issues raised which were
more likely to result in a successful appeal...Petitioner’s counsel expressed his
reasoning and strategy in dealing with Ms. Ebeling’s inconsistent statements
and what actions he took to bring these issues to the attention of the jury. His
explanation certainly demonstrated sound legal reasoning in his approach that
this Court cannot question. Therefore, this Court dismissed Petitioner’s Claims
concerning Kenyon Ebeling’s alleged perjury [and Lee’s component
ineffectiveness claim].
(Doc. 98, at 27-28).
Here, regardless of how strongly Lee feels about Ebeling’s trial statements, and the
Commonwealth’s eliciting thereof, the Court does not find that it was an objectively
unreasonable defense strategy for Attorney McGlaughlin to abandon the Perjury Claim on
direct appeal. Nor does the Court find any basis to disturb the state court’s dismissal of the
Perjury Ineffectiveness Claim, as the Superior Court did not improperly apply the holding in
Strickland or base its decision on an unreasonable determination of the facts, by clear and
convincing evidence. See 28 U.S.C. § 2254(d). Thus, the Court finds that the Perjury
Ineffectiveness Claim is without merit. Relatedly, Lee also has not demonstrated the requisite
cause to salvage his procedurally defaulted Perjury Claim.
Therefore, this Court respectfully recommends that the Perjury Ineffectiveness Claim
(ground fourteen) be DISMISSED on the merits, and that its underlying substantive Perjury
Claim (ground thirteen) be DISMISSED as procedurally defaulted.
58

Case l:13-cv-02

6.

:YK-KM Document 113 Filed 04/r~'\9 Page 59 of 62

Ground Ten (Appellate Ineffectiveness Claim)

Ground ten of Lee’s habeas petition, when liberally construed, appears to allege that
his appellate counsel (Mr. McGlaughlin) was ineffective for unsuccessfully litigating the
claims he raised during direct review proceedings. (Doc. I, at 6). Specifically, Lee avers that
the Pennsylvania Superior Court denied his appeal based on appellate counsel’s failure to
“properly argue” the asserted claims. (Doc. 1, at 6). Thus, as best can be gleaned by the Court,
Lee seems to allege that Mr. McGlaughlin rendered constitutionally deficient assistance when
he failed to properly develop Lee’s claims on direct review, thereby leading to their dismissal.
(Doc. 1, at 6). However, Lee “is not entitled to claim ineffective assistance of counsel merely
because he lost.” See McClain v. United States, 2013 WL 1163562 (D.N.J. Mar. 19, 2013);
Strickland, 466 U.S. at 689 (“It is all too tempting for a defendant to second-guess counsel’s
assistance after conviction or adverse sentence [and] a court must indulge a strong
presumption that counsel’s conduct falls within the wide range of reasonable professional
assistance^] ”). Thus, the Court does not find that Lee is entitled to federal habeas relief on
this ground.
As such, the Court respectfully recommends that that the Appellate Ineffectiveness
Claim (ground ten) be DISMISSED as without merit.
7.

Ground Eighteen (Statutory PCRA Claim)

In his Supplemental Habeas Petition, Lee argues that the state court’s interpretation
of the PCRA’s jurisdictional time bar violates the Constitution. (Doc. 63, at 24-40). His
Traverse further clarifies that the state court’s construction, and enforcement, of 42 Pa.C.S. A.
§ 9545(b) effectively fosters the procedural default of meritorious claims. (Doc. 111, at 37). In
response, the Commonwealth argues that the Statutory PCRA Claim is not cognizable under
59

Case l:13-cv-02'

YK-KM Document 113 Filed 04/f'"J',9 Page 60 of 62

the AEDPA.49 (Doc. 74, at 26-28). Specifically, the Commonwealth avers that Lee challenges
the interpretation and application of state law, which the Court may not evaluate on federal
habeas review. (Doc. 74, at 28).
Under the AEDPA, a federal court may only consider habeas petitions filed on behalf
of individuals held “in custody in violation of the Constitution or laws or treaties of the United
States.” 28 U.S.C. § 2254(a). “[I]t is not the province of a federal habeas court to reexamine
state-court determinations on state-law questions.” Estelle v. McGuire, 502 U.S. 62, 67-68
(1991). Here, Lee’s Statutory PCRA Claim squarely pertains to the time bar requirement
construed, and applied, by state courts under Pennsylvania law. See Leggitt v. Palakovich, No.
CIV A. 05-5845, 2006 WL 1736085, at *5 (E.D. Pa. June 21, 2006) (“The state courts’
application of the sixty (60-) day rule set forth by 42 Pa.C.S.A. § 9545(b) is strictly related to
a state procedural rule and is a matter of state law.”). Thus, to the extent Lee alleges a
violation of state law,50 his claim is not cognizable under the AEDPA.
Accordingly, the Court respectfully recommends that the Statutory PCRA Claim
(ground eighteen) be DISMISSED, as it is non-cognizable in the context of a federal habeas
petition.

49 While the Commonwealth does not expressly argue that this claim is procedurally
defaulted, it also appears to be barred based on an adequate and independent state court
ground. The Court considers this claim on the merits, however, as it is evident that it fails to
raise a colorable federal claim. See Evans v. Court ofCommon Pleas, Delaware Cty., Pa., 959 F.2d
1227, 1231 (3d Cir. 1992).
50 As discussed supra, insofar as Lee raised a question of federal law under the Statutory
PCRA Claim, such an argument is procedurally defaulted.
60

Case l:13-cv-02'

in.

YK-KM Document 113 Filed 04/0"9 Page 61 of 62

Recommendation
Based on the foregoing, it is recommended that Lee’s petition (Doc. 1; Doc. 63) be

DENIED and DISMISSED WITH PREJUDICE. The Court further recommends against
the issuance of a certificate of appealability, as Lee has failed to demonstrate “a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v.
Cockrell, 537 U.S. 322, 335-36 (2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000).

JJCUu. MULL

Dated: April 8, 2019

KAROLINE MEHALCHICK
United States Magistrate Judge

61

Case l:13-cv-02"

YK-KM Document 113 Filed 04/p^19 Page 62 of 62

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF PENNSYLVANIA
TAJI JEMAL LEE,
Petitioner

CIVIL ACTION NO. 1:13-CV-02353
(KANE, J.)
(MEHALCHICK, M.J.)

v.
JOHN KERESTES, et al,
Respondents
NOTICE

NOTICE IS HEREBY GIVEN that the undersigned has entered the foregoing Report
and Recommendation dated April 8,2019. Any party may obtain a review of the Report and
Recommendation pursuant to Rule 72.3, which provides:
Any party may object to a magistrate judge’s proposed findings,
recommendations or report addressing a motion or matter described in 28
U.S.C. § 636(b)(1)(B) or making a recommendation for the disposition of a
prisoner case or a habeas corpus petition within fourteen (14) days after being
served with a copy thereof. Such party shall file with the clerk of court, and
serve on the magistrate judge and all parties, written objections which shall
specifically identify the portions of the proposed findings, recommendations or
report to which objection is made and the basis for such objections. The
briefing requirements set forth in Local Rule 72.2 shall apply. A judge shall
make a de novo determination of those portions of the report or specified
proposed findings or recommendations to which objection is made and may
accept, reject, or modify, in whole or in part, the findings or recommendations
made by the magistrate judge. The judge, however, need conduct a new
hearing only in his or her discretion or where required by law, and may consider
the record developed before the magistrate judge, making his or her own
determination on the basis of that record. The judge may also receive further
evidence, recall witnesses or recommit the matter to the magistrate judge with
instructions.
Dated: April 8, 2019

JJC^L. nuJcU,
KAROLINE MEHALCHICK
United States Magistrate Judge

Case l:13-cv-CT

3-YK-KM Document 119 Filed 02/”-'20 Page lot6

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
TAJI JEMAL LEE,
Petitioner
No. l:13-cv-02353
v.
(Judge Kane)
(Magistrate Judge Mehalchick)

JOHN KERESTES, et al..
Respondents
ORDER

THE BACKGROUND OF THIS ORDER IS AS FOLLOWS:
Before the Court is the April 9, 2019 Report and Recommendation of Magistrate Judge
Mehalchick recommending that this Court deny Petitioner Taji Jemal Lee (“Petitioner”)’s pro se
petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. (Doc. No. 113.)1 In her
sixty-two (62) page Report and Recommendation, Magistrate Judge Mehalchick undertakes a
thorough review of Petitioner’s trial and post-trial proceedings, and considers eighteen (18)
potential grounds for relief set forth in his petition, liberally construed. (Id.) Ultimately,
Magistrate Judge Mehalchick concludes that, as to ten (10) of the potential grounds for relief
presented by the petition, all are either procedurally defaulted (grounds one, three, five, eleven,
sixteen, and seventeen), non-cognizable on federal habeas review (grounds two and eight), or
plainly meritless (grounds nine and fifteen). (Doc. No. 113 at 17-35.) As to the remaining
eight (8) grounds for relief raised by the petition, Magistrate Judge Mehalchick considers these
potential bases for relief on the merits and concludes that none provides a basis for relief. (Id. at
35-60.) Petitioner filed objections to the pending Report and Recommendation on May 28,
2019. (Doc. No. 118.)
l

Petitioner’s habeas petition relates to his 2006 conviction for twenty-six (26) drug-related
offenses, for which he was sentenced to a total of 30-60 years in prison. (Doc. No. 113 at 2.)

Case l:13-cv-0

3-YK-KM Document 119 Filed 02'"4'20 Page 2 of 6

Petitioner first objects to Magistrate Judge Mehalchick’s conclusion that: (1) grounds
one, three, five, eleven, sixteen, and seventeen are procedurally defaulted and/or that no cause
exists to excuse that default; (2) grounds two and eight are non-cognizable on federal habeas
review; and (3) grounds nine and fifteen are plainly meritless. (Doc. No. 11 at 3-9.) As to
Petitioner’s objections in this regard, the Court observes that Petitioner’s objections largely
restate arguments previously presented in his original habeas petition (Doc. No. 1), his
memorandum of law in support of his habeas petition (Doc. No. 23), his amended petition (Doc.
No. 63), and his Traverse (Doc. No. Ill), which were considered by Magistrate Judge
Mehalchick as reflected in the Report and Recommendation. Having thoroughly considered
Petitioner’s objections to the portion of the Report and Recommendation addressing the above
grounds for relief, the Court finds that Magistrate Judge Mehalchick correctly and
comprehensively addressed the substance of Petitioner’s objections in the Report and
Recommendation. Therefore, the Court will not write separately to address them. The Court
turns to Petitioner’s objections to those grounds for relief addressed on the merits by Magistrate
Judge Mehalchick.
Six of the remaining eight grounds for relief contained in the petition raise ineffective
assistance of counsel claims, all of which Magistrate Judge Mehalchick recommends that this
Court deny. Petitioner objects to Magistrate Judge Mehalchick’s recommendation as to five of
the six ineffective assistance of counsel claims, consisting of the following: (1) ineffective
assistance of counsel based on counsel’s failure to ensure an impartial jury (ground four); (2)
ineffective assistance of counsel regarding counsel’s handling of a jury instruction given on
entrapment (ground six); (3) ineffective assistance of counsel based on a deprivation of his
2

Case l:13-cv-0r

3-YK-KM Document 119 Filed 02rj,20 Page 3 of 6

constitutional right to testify (ground seven); (4) ineffective assistance of counsel based on
counsel’s failure to raise an alleged violation of Bradv v. Maryland on direct appeal (ground
twelve); and (5) ineffective assistance of counsel based on counsel’s waiver of any claim that the
Commonwealth presented perjured testimony (grounds thirteen2 and fourteen). 3
With regard to Petitioner’s asserted objections to Magistrate Judge Mehalchick’s
recommendation as to the above five claims of ineffective assistance of counsel, the Court
observes that Petitioner’s objections largely consist of his general disagreement with Magistrate
Judge Mehalchick’s application of the AEDPA4 standard of review5 to each claim, and, in each
case, her conclusion that the state court finding of no ineffective assistance of counsel was not
contrary to, or an unreasonable application of, Strickland v. Washington. 466 U.S. 668 (1984), or
based on an unreasonable determination of the facts in light of the evidence presented in the state

2 In connection with her discussion of Petitioner’s ineffectiveness claim in this regard,
Magistrate Judge Mehalchick also addresses whether there is any basis to excuse Petitioner’s
procedural default of his underlying claim, ultimately finding no such basis. (Doc. No. 113 at
55-58.)
3 Petitioner does not specifically object to Magistrate Judge Mehalchick’s conclusion that
Petitioner’s claim of appellate ineffectiveness (ground ten) is meritless or that his statutory
PCRA claim (ground eighteen) is not cognizable under AEDPA as it pertains to an alleged
violation of state law.
4 Petitioner’s Section 2254 petition is governed by the Antiterrorism and Effective Death Penalty
Act of 1996 (“AEDPA”).
5 Section 2254(d) provides as follows:
An application for a writ of habeas corpus on behalf of a person in custody pursuant to
the judgment of a State court shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless the adjudication of the claim (1) resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United
States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
3

Case l:13-cv-0f

3-YK-KM Document 119 Filed 02/°A'20 Page 4 of 6

court proceeding. (Doc. No. 118 at 10-27.) Having thoroughly considered Petitioner’s
objections to the Report and Recommendation in this regard, and upon independent review of the
record and applicable law, the Court finds no error in Magistrate Judge Mehalchick’s assessment
of Petitioner’s ineffective assistance of counsel claims under the applicable standard.
Accordingly, the Court will not write separately to address them, except with regard to two
points.
First, as to Petitioner’s objection to Magistrate Judge Mehalchick’s recommendation
regarding his ineffective assistance of counsel claim based on a failure to request removal of an
allegedly biased juror (ground four), Petitioner argues that in assessing this claim, Magistrate
Judge Mehalchick relied on isolated portions of the record instead of the record as a whole.
(Doc. No. 118 at 10-14.) Petitioner’s objection is unavailing. A review of the record in
connection with Magistrate Judge Mehalchick’s discussion of this claim (Doc. No. 113 at 37-45)
reveals no error in Magistrate Judge Mehalchick’s consideration of the record in this regard.
The Court notes that Magistrate Judge Mehalchick specifically discussed those parts of the
record identified by Petitioner in connection with this claim. (Id. at 39-44.)
Second, as to Petitioner’s objection to Magistrate Judge Mehalchick’s recommendation
regarding his ineffective assistance of counsel claim based on counsel’s failure to allege a
violation of Brady v. Maryland on direct appeal (ground twelve), Petitioner argues that
Magistrate Judge Mehalchick erroneously applied a “heightened” standard of review to this
claim. (Doc. 118 at 23-25.) Specifically, Petitioner maintains that, in connection with her
conclusion that, on the record before the Court, Petitioner had not offered any “concrete”
evidence to prove the existence of an allegedly withheld 2002 Debriefing Report (the
4

Case l:13-cv-CT

3-YK-KM Document 119 Filed 02/”’L/20 Page 5 of 6

“Debriefing Report”), Magistrate Judge Mehalchick erroneously applied a “heightened”
standard, apparently viewing Magistrate Judge Mehalchick’s reference to the word “concrete” as
imposing a higher burden than the “clear and convincing” evidence required to rebut the
presumption of correctness attaching to a state court determination of a factual issue. See 28
U.S.C. §2254(e)(l) (providing that “a determination of a factual issue made by a State court shall
be presumed to be correct. The applicant shall have the burden of rebutting the presumption by
clear and convincing evidence”). The Court notes that the dictionary definition of “concrete” is
“real, tangible,”6 which, in requiring only that something be “tangible,” would appear to
constitute a lesser standard of proof than “clear and convincing” evidence. Regardless of
Magistrate Judge Mehalchick’s word choice, the Court finds no error in her application of the
relevant standard to Petitioner’s claim, in that she correctly concluded that Petitioner did not
provide “clear and convincing” evidence sufficient to rebut the state court’s factual
determination regarding this claim.7

6 Merriam Webster’s Collegiate Dictionary 239 (10™ ed. 1997).
7 Prior to the filing of his objections to the pending Report and Recommendation, Petitioner filed
a Motion to Supplement the Record. (Doc. No. 117.) In that motion, Petitioner asks the Court
to direct the Commonwealth to provide to the Court the transcript of Petitioner’s grand jury
proceedings, which he maintains supports his claim regarding the Commonwealth’s purported
failure to produce the Debriefing Report in connection with his ineffective assistance claim
based on Brady. However, if a state court has ruled on the merits of a particular claim (which it
did with regard to Petitioner’s Brady ineffectiveness claim) a federal habeas petitioner must
generally meet the requirements of Section 2254(d) “on the record that was before the state
court.” See Cullen v. Pinholster, 563 U.S. 170, 185 (2011) (footnote omitted). Absent certain
circumstances set forth in Section 2254(e)(2), district courts cannot supplement the state court
record for claims adjudicated on the merits in state court. See Brown v. Wenerowicz. 663 F.3d
619, 629 (3d Cir. 2011). “Otherwise, federal habeas petitioners would be able to circumvent the
finality of state court judgments by establishing a new factual record” in connection with federal
habeas review. See id. Accordingly, the Court will deny Petitioner’s motion.
5

Case l:13-cv-0"

3-YK-KM Document 119 Filed 02/^ 720 Page 6 of 6

AND SO, on this 24th day of February 2020, upon independent review of the record and
the applicable law, IT IS ORDERED THAT:
1. The Court ADOPTS Magistrate Judge Mehalchick’s Report and Recommendation
(Doc. No. 113);
2. Petitioner’s objections (Doc. No. 118) are OVERRULED;
3. Petitioner’s Motion to Supplement the Record (Doc. No. 117) is DENIED;
4. The petition for a writ of habeas corpus (Doc. No. 1) is DENIED;
5. A certificate of appealability SHALL NOT ISSUE; and
6. The Clerk of Court is directed to CLOSE the case.
s/ Yvette Kane
Yvette Kane, District Judge
United States District Court
Middle District of Pennsylvania

6

